No. _________
In The
Supreme Court of the United States

OLGA PAULE PERRIER-BILBO;

Petitioner,

v.
UNITED STATES, L. FRANCIS CISSNA, DIRECTOR, U.S.
CITIZENSHIP AND IMMIGRATION SERVICES;
Respondents.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI
APPENDIX
MICHAEL NEWDOW
Post Office Box 248
Nice, CA 95464
(626) 532-7694
NewdowLaw@gmail.com
Counsel of Record for Petitioner
Olga Paul Perrier-Bilbo

APPENDIX TO THE PETITION
FOR WRIT OF CERTIORARI
TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the First Circuit (April 3, 2020) .................. App. 001-055
Memorandum and Order of the United States
District Court for the District of
Massachusetts (September 28, 2018) ............... App. 056-078
Constitutional Provisions, Statute and
Regulation Involved in this Case .................... App. 079-085
S. Con. Res. 96 (2006)
Regarding the 50th Anniversary of the
national motto of the United States, “In
God We Trust” ...................................................... App. 086-090
H. Res. 431 (2007)
Regarding the 40th Anniversary of the U.S.
Supreme Court Decision in Loving v.
Virginia … ........................................................... App. 091-094

Case: 18-2085

Document: 00117573783

Page: 1

Date Filed: 04/03/2020

Entry ID: 6329824

United States Court of Appeals
For the First Circuit
No. 18-2085
OLGA PAULE PERRIER-BILBO,
Plaintiff, Appellant,
v.
UNITED STATES; L. FRANCIS CISSNA, Director,
U.S. Citizenship and Immigration Services,
Defendants, Appellees,
CONGRESS OF THE UNITED STATES,
Defendant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. William G. Young, U.S. District Judge]

Before
Torruella, Thompson, and Barron,
Circuit Judges.

Michael A. Newdow, for appellant.
Scott G. Stewart, Deputy Assistant Attorney General, Civil
Division, U.S. Department of Justice, with whom Francesca Genova,
Trial Attorney, Office of Immigration Litigation, Joseph H. Hunt,
Assistant Attorney General, Matthew J. Glover, Counsel to the
Assistant Attorney General, Civil Division, William C. Peachey,
Director, Erez Reuveni, Assistant Director, were on brief, for
appellees.

APP. 001

Case: 18-2085

Document: 00117573783

Page: 2

Date Filed: 04/03/2020

Entry ID: 6329824

April 3, 2020

-2-

APP. 002

Case: 18-2085

Document: 00117573783

TORRUELLA,

Circuit

Page: 3

Date Filed: 04/03/2020

Judge.

Entry ID: 6329824

Plaintiff-appellant

Olga

Paule Perrier-Bilbo ("Perrier-Bilbo") appeals the district court's
order granting summary judgment in favor of the United States and
Francis Cissna, the Director of the United States Citizenship and
Immigration Services ("USCIS") (collectively, the "Government"),
on her claims that the inclusion of the phrase "so help me God" at
the end of the oath of allegiance administered at United States
naturalization ceremonies violates the Establishment and Free
Exercise Clauses of the First Amendment, the Religious Freedom
Restoration Act, 42 U.S.C. §§ 2000bb–2000bb-4 ("RFRA"), and the
Fifth

Amendment

protections.

equal

protection

and

procedural

due

process

In addition, Perrier-Bilbo also appeals the district

court's order denying her post-judgment motion asserting a due
process violation arising from the USCIS Boston Field Office
director's

conduct

in

handling

naturalization application.
federal

regulation

and

then

denying

her

first

She requests that we declare the

prescribing

the

oath's

language

unconstitutional, that we enjoin USCIS and lower courts from using
the phrase "so help me God" during the naturalization ceremony for
which she is scheduled, and that we order USCIS to reimburse the
$680 she paid for her second naturalization application.

Because

we find that the inclusion of "so help me God" as a means of
completing the naturalization oath does not violate the First or

-3-

APP. 003

Case: 18-2085

Document: 00117573783

Page: 4

Date Filed: 04/03/2020

Entry ID: 6329824

Fifth Amendments or RFRA, and because the post-judgment due process
claim was not properly presented below, we affirm.
I.
A.

Background

Factual Background
Perrier-Bilbo is a French citizen who moved to Scituate,

Massachusetts in 2000.

In 2002, she became a United States

permanent resident and subsequently received a green card in 2004.
In 2008, Perrier-Bilbo decided to become a United States citizen,
so she submitted an application for naturalization to USCIS.
After attending an interview with USCIS and passing her English
language

and

civics

tests,

USCIS

granted

her

application.

Perrier-Bilbo then received a form notifying her that she would
take the oath of allegiance to the United States on March 4, 2009.
This was her last mandatory step towards admission to citizenship.
See 8 U.S.C. § 1448(a); 8 C.F.R. § 337.1(a).

The Department of

Homeland Security nationality regulations provide the language of
the oath, which concludes: "I take this obligation freely, without
any mental reservation or purpose of evasion; so help me God."
8 C.F.R. § 337.1(a) (emphasis added).
Perrier-Bilbo's

"sincere

religious

includes the denial that there exists any 'God.'"

belief

system

Therefore, in

January 2009, she wrote to USCIS requesting that the oath be
administered without the phrase "so help me God."

USCIS informed

-4-

APP. 004

Case: 18-2085

Document: 00117573783

Page: 5

Date Filed: 04/03/2020

Entry ID: 6329824

Perrier-Bilbo in April 2009 that she could either "participate in
the oath ceremony and omit the 'so help me God' language, or
schedule a private oath ceremony where the government would not
use that phrase." 1

Months later, in August 2009, USCIS sent

Perrier-Bilbo a letter giving her "15 days in which to notify USCIS
which of the options provided to [her was] acceptable" and warning
her that if she failed to respond or "decline[d] to specify one of
the

options,"

USCIS

would

reopen

her

case

and

"deny

[her]

application for naturalization for lack of prosecution."
That same month, Perrier-Bilbo's lawyer sent a letter to
the director of the USCIS Boston Field Office, Karen Haydon
("Director Haydon"), to alert her that Perrier-Bilbo had retained
him as counsel and "that neither of the two options provided
w[ould] satisfactorily resolve the problem."

He proposed that the

solution was "merely that the religious verbiage be removed from

1

The federal regulation allows for the alteration of the oath in
certain cases:
When a petitioner or applicant for naturalization, by
reason of religious training and belief (or individual
interpretation thereof), or for other reasons of good
conscience,
cannot
take
the
oath
prescribed
. . . with the words "on oath" and "so help me God"
included, the words "and solemnly affirm" shall be
substituted for the words "on oath," the words "so
help me God" shall be deleted, and the oath shall be
taken in such modified form.
8 C.F.R. § 337.1(b).
-5-

APP. 005

Case: 18-2085

Document: 00117573783

Page: 6

Date Filed: 04/03/2020

Entry ID: 6329824

the oath, as the First Amendment mandates." Subsequently, PerrierBilbo's attorney twice attempted to obtain an update on PerrierBilbo's request.

In May 2010, Director Haydon acknowledged the

correspondence, but pointed out that Perrier-Bilbo's lawyer had
not submitted a notice of appearance form and consequently, because
he was not authorized to respond on Perrier-Bilbo's behalf, the
response letter he had sent "d[id] not constitute a response to
the

USCIS's

application

notice
for

of

its

intent

naturalization.

to

reopen"

USCIS

Perrier-Bilbo's

therefore

denied

the

application as abandoned but noted that Perrier-Bilbo could file
a new application at any time.
After filing at least two notices of appearance and
unsuccessfully attempting to obtain a waiver of the application
fee, Perrier-Bilbo filed a second application for naturalization
and paid the corresponding $680 in fees in December 2014.
granted

the

application

in

August

2015.

USCIS

Perrier-Bilbo's

naturalization ceremony was ultimately scheduled for April 2017 at
the U.S. District Court for the District of Massachusetts.

On the

day of the ceremony, Perrier-Bilbo tried to explain her objection
to the oath.

When informed that she "d[id not] have to say

anything," she replied, "[i]f I participate, I feel I am violating
the Constitution I am supposed to support and defend."

Perrier-

Bilbo was told she would not be sworn in that day and that she

-6-

APP. 006

Case: 18-2085

Document: 00117573783

Page: 7

should speak with USCIS directly.

Date Filed: 04/03/2020

Entry ID: 6329824

That same day, both Perrier-

Bilbo and her lawyer spoke with an individual at the Boston USCIS
office.
In August 2017, USCIS sent a letter to Perrier-Bilbo
informing her that she was scheduled to participate in the upcoming
September

2017

naturalization

ceremony.

The

letter

also

acknowledged her request to "take an oath of allegiance modified
for religious or conscientious objections" and reiterated that the
two accommodations previously proposed were still available to
her, but that the district court administering the oath "w[ould]
not modify the oath of allegiance for the applicants who ha[d] not
requested such a modification."

Perrier-Bilbo did not go to the

September 2017 naturalization ceremony.
B.

Procedural History
On November 2, 2017, Perrier-Bilbo filed a complaint in

the U.S. District Court for the District of Massachusetts against
the Government.2

The complaint alleged that the inclusion of the

phrase "so help me God" in the naturalization oath as set forth in
8 C.F.R. § 337.1 violated (1) the Establishment Clause; (2) the
Free Exercise Clause; (3) the RFRA; (4) the equal protection

2

Perrier-Bilbo originally named the U.S. Congress as a party in
the district court matter, but voluntarily dismissed her claims
against it on May 8, 2018.
-7-

APP. 007

Case: 18-2085

Document: 00117573783

Page: 8

Date Filed: 04/03/2020

Entry ID: 6329824

component of the Fifth Amendment's Due Process Clause; and (5)
procedural due process under the Fifth Amendment's Due Process
Clause.

Specifically, Perrier-Bilbo, who describes herself as "an

Atheist who specifically denies the existence of any 'God,'"
claimed that by adding "so help me God" to the end of the oath,
the United States "[was] asserting that God exists."

According

to her, although the regulations allow for the oath to be altered,
she would still be violating her oath to "support and defend the
Constitution and the laws of the United States of America" because
those laws do not permit the government to make her an "outsider"
because of her religious beliefs or force her to use an alternative
oath.
"so

The complaint sought a declaration that keeping the phrase

help

me

God"

in

the

naturalization

oath

violated

above-mentioned constitutional provisions and statute.

the

It also

requested the district court to permanently enjoin the Government
"from placing 'so help me God' in future naturalization oath
ceremonies" and to order the Government to reimburse Perrier-Bilbo
for the cost of her second naturalization application fees.
On February 22, 2018, the Government filed a motion to
dismiss the complaint pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6) for lack of standing and failure to state a
claim.

The district court heard oral argument on the motion on

May 8, 2018.

During the hearing, the court obtained the parties'

-8-

APP. 008

Case: 18-2085

Document: 00117573783

Page: 9

Date Filed: 04/03/2020

Entry ID: 6329824

consent to convert the motion to dismiss into cross-motions for
summary judgment, as it appeared to the court that it "ha[d] the
necessary facts" and "nothing[ was] in dispute."

On September 28,

2018, the district court issued a memorandum and order granting
summary judgment for the Government.

Perrier-Bilbo v. United

States, 346 F. Supp. 3d 211 (D. Mass. 2018).

First, the district

court, while recognizing that the phrase "so help me God" had "some
religious

content,"

id.

at

221,

rejected

Perrier-Bilbo's

Establishment Clause claim, finding that "the use of the phrase
. . . or similar invocations in public oaths and statements is,
along with legislative prayer, a well-established tradition that
can

be

traced

back

to

the

nation's

founding,"

id.

at

219.

Moreover, the court noted that the Supreme Court has upheld "more
sectarian" "religious invocations" than the phrase at issue here,
id., and that the accommodations offered to Perrier-Bilbo were
"permissible,

non-coercive

alternatives,"

id.

at

220.

In

addition, it highlighted the "overwhelmingly consistent precedent
and dicta" upholding the constitutionality of similar practices.
Id.
The district court then turned to the Free Exercise
Clause challenge.

Relying on Freedom From Religion Foundation v.

Hanover School District, 626 F.3d 1 (1st Cir. 2010),3 the court

3

In Freedom From Religion Foundation, we held that a New Hampshire
-9-

APP. 009

Case: 18-2085

Document: 00117573783

Page: 10

Date Filed: 04/03/2020

Entry ID: 6329824

found that "mere exposure" to the phrase "so help me God" would
not have a coercive effect on, or compel, Perrier-Bilbo to affirm
a religious belief she does not hold, especially when USCIS offered
two alternatives to avoid using the phrase.
F. Supp. 3d at 221.

Perrier-Bilbo, 346

The court further noted that even if

Perrier-Bilbo had not been offered a private ceremony, simply
remaining silent at the public ceremony would not amount to
Perrier-Bilbo agreeing with the phrase recited by her peers.
Furthermore,

the

court

determined

naturalization oath comported with RFRA.

that

Id. at 222.

Id.
the

To that

end, it found that because USCIS had offered Perrier-Bilbo two
alternatives to avoid reciting "so help me God," the Government
did not impose a "'substantial pressure' on her to violate her
beliefs."
that

Id.

would

The court also noted that the mere inconvenience

result

from

Perrier-Bilbo

either

remaining

silent

during the contested phrase or attending a private ceremony did
not rise to the level of a substantial burden on her religious
beliefs.

Id.
The district court similarly rejected Perrier-Bilbo's

claim that the naturalization oath violated the Fifth Amendment's

statute that required public schools to provide a period during
the school day when students could voluntarily recite the Pledge
of Allegiance passed the constitutional muster of the First and
Fourteenth Amendments. 626 F.3d at 3—4.
-10-

APP. 010

Case: 18-2085

Document: 00117573783

Page: 11

Date Filed: 04/03/2020

Due Process Clause or its equal protection component.

Entry ID: 6329824

Id. at 223.

Specifically, the court found that the oath did not treat any class
of

people

differently

or

give

preferential

treatment

to

any

religion, particularly in light of the regulation's provision that
allows for the alteration of the oath for those who do not wish to
say the words "so help me God."

Id.

Finally, the court held

that, because Perrier-Bilbo did not identify a protected liberty
or property interest of which she had been deprived, her procedural
due process claim also failed.

Id.

Accordingly, the court

granted summary judgment on all claims.

Id.

On October 29, 2018, Perrier-Bilbo filed a post-judgment
motion seeking the reimbursement of the $680 she paid for the
second naturalization form.4

She claimed that Director Haydon's

"arbitrary refusal" to inform her that her lawyer needed to submit
a notice of appearance -- despite having received multiple letters
from

her

lawyer

--

followed

by

the

denial

of

the

first

naturalization application as abandoned amounted to a procedural
due process violation.

Perrier-Bilbo attributed Director Haydon's

conduct to an "anti-Atheistic bias."

The district court denied

the motion on October 30, 2018, noting that because the Government

4

Because the court had not ruled on this matter in either its
memorandum and order granting summary judgment or the entry of
that judgment, Perrier-Bilbo filed this motion pursuant to Federal
Rules of Civil Procedure 52(b) and/or 59(e).
-11-

APP. 011

Case: 18-2085

had

Document: 00117573783

"prevailed,

there

Page: 12

[was]

no

Date Filed: 04/03/2020

occasion

for

Entry ID: 6329824

reimbursement."

Perrier-Bilbo filed a timely appeal of this denial and the grant
of summary judgment.
II.
A.

Discussion

Granting of Summary Judgment
We review a district court's grant of summary judgment

de novo, construing the record in the light most favorable to the
nonmovant and resolving all reasonable inferences in that party's
favor.

Ocasio-Hernández v. Fortuño-Burset, 777 F.3d 1, 4 (1st

Cir. 2015); Mesnick v. Gen. Elec. Co., 950 F.2d 816, 822 (1st Cir.
1991) (quoting Griggs-Ryan v. Smith, 904 F.2d 112, 115 (1st Cir.
1990)).

This standard of review remains "unaltered when an appeal

emerges from cross-motions for summary judgment."

Doe v. Trs. of

Bos. Coll., 892 F.3d 67, 79 (1st Cir. 2018) (citing Roman Catholic
Bishop of Springfield v. City of Springfield, 724 F.3d 78, 89 (1st
Cir. 2013)).
reasonable
party."

Considering each motion separately, we make "all

inferences

in

favor

of

the

respective

City of Springfield, 724 F.3d at 89.

non-moving

When, as here, the

facts are undisputed, the court simply must determine whether one
of the parties is entitled to judgment as a matter of law based on
those facts.

Littlefield v. Acadia Ins. Co., 392 F.3d 1, 6 (1st

Cir. 2004) (quoting Barnes v. Fleet Nat'l Bank, N.A., 370 F.3d
164, 170 (1st Cir. 2004)).

-12-

APP. 012

Case: 18-2085

Document: 00117573783

1.

Page: 13

Date Filed: 04/03/2020

Entry ID: 6329824

Establishment Clause Claim
The First Amendment provides, in relevant part, that

"Congress

shall

religion."
recognizes

make

U.S.
that

no

Const.

"[t]he

law

respecting

amend.

clearest

I.

an

establishment

Supreme

command

of

Court

the

of

precedent

Establishment

Clause is that one religious denomination cannot be officially
preferred over another," Trump v. Hawaii, 138 S. Ct. 2392, 2417
(2018) (alteration in original) (quoting Larson v. Valente, 456
U.S. 228, 244 (1982)), nor can the government prefer religion over
nonreligion, see Marrero-Méndez v. Calixto-Rodríguez, 830 F.3d 38,
44 (1st Cir. 2016) ("As conceived, the organizing principle of the
Establishment

Clause

is

'governmental

neutrality'

--

between

'religion and nonreligion,' as well as among religions." (quoting
McCreary Cty., Ky. v. Am. Civil Liberties Union of Ky., 545 U.S.
844, 860 (2005))).

"The Establishment Clause, at the very least,

prohibits government from appearing to take a position on questions
of religious belief or from 'making adherence to a religion
relevant in any way to a person's standing in the political
community.'"

Cty. of Allegheny v. Am. Civil Liberties Union

Greater Pittsburgh Chapter, 492 U.S. 573, 593–94 (1989) (quoting
Lynch

v.

Donnelly,

465

U.S.

668,

687

(1984)

(O'Connor,

J.,

concurring)).

-13-

APP. 013

Case: 18-2085

Document: 00117573783

Page: 14

Date Filed: 04/03/2020

Entry ID: 6329824

In evaluating the Establishment Clause challenge, the
district court looked to the historical and traditional practice
of using phrases like "so help me God" in public oaths and
statements to uphold the constitutionality of the phrase in the
naturalization oath.
of

the

phrase

is

Perrier-Bilbo argues that whether the use

rooted

in

history

and

tradition

is

not

a

legitimate way to assess if the oath in its current form is
constitutional. Supreme Court Establishment Clause jurisprudence,
however, supports the district court's analysis of the challenge
by reference to historical practices and understanding.
Individual Justices have hinted that history plays a
significant role in interpreting the Establishment Clause and
determining whether a challenged action complies with it.

See,

e.g., Elk Grove Unified Sch. Dist. v. Newdow, 542 U.S. 1, 26–29
(2004)

(Rehnquist,

C.J.,

concurring

in

judgment)

(discussing

various "patriotic invocations of God and official acknowledgments
of religion's role" throughout the United States' history); id. at
37 (O'Connor, J., concurring) ("[I]n examining whether a given
practice constitutes an instance of ceremonial deism, its 'history
and ubiquity' will be of great importance."); Cty. of Allegheny,
492 U.S. at 670 (Kennedy, J., concurring in judgment in part and
dissenting in part) ("[T]he meaning of the [Establishment] Clause
is to be determined by reference to historical practices and

-14-

APP. 014

Case: 18-2085

Document: 00117573783

understandings.").

Page: 15

Date Filed: 04/03/2020

Entry ID: 6329824

Similarly, in Marsh v. Chambers, the Supreme

Court, tasked with assessing the constitutionality of a state's
practice

of

beginning

a

legislative

session

with

a

prayer,

acknowledged that "[t]he opening of sessions of legislative and
other deliberative public bodies with prayer is deeply embedded in
the history and tradition of this country," and proceeded to
summarize some of that history.

463 U.S. 783, 786–89 (1983).

Although the Marsh Court held that historical patterns alone were
insufficient

to

justify

contemporary

violations

of

the

Establishment Clause, it found "far more" than mere historical
patterns present in that case, noting the "unique history" that
spoke to the intent of those who drafted the Establishment Clause,
which led the Court to ultimately uphold the prayer practice.

Id.

at 790–91.
Recent
jurisprudence,

developments

however,

suggest

in
that

Establishment
the

historical pattern now carries more weight.

mere

Clause

presence

of

a

In Town of Greece v.

Galloway, the Supreme Court stated that "the Establishment Clause
must be interpreted 'by reference to historical practices and
understandings.'"

572

U.S.

565,

576

(2014)

(quoting

Cty.

of

Allegheny, 492 U.S. at 670 (Kennedy, J., concurring in judgment in
part

and

dissenting

in

part)).

The

Supreme

Court

found

it

unnecessary to "define the precise boundary of the Establishment

-15-

APP. 015

Case: 18-2085

Clause

Document: 00117573783

where

permitted."

history

Page: 16

shows

Id. at 577.

that

Date Filed: 04/03/2020

the

specific

Entry ID: 6329824

practice

is

It upheld a town's practice of holding

a nondiscriminatory prayer before a town council meeting, finding
that it "fi[t] within the tradition long followed in Congress and
the state legislatures."5

Id.

Most recently in American Legion v. American Humanist
Association, the Supreme Court assessed an Establishment Clause
challenge using a framework that looked to longstanding historical
practices and significance.

139 S. Ct. 2067, 2074 (2019) (holding

that "the adoption of the cross as [a] memorial must be viewed in
[its] historical context").
decide

whether

the

The American Legion Court had to

Bladensburg

Peace

Cross

--

a

thirty-two-foot-tall Latin cross erected in 1925 as a World War I
memorial,

located

on

public

land,

and

maintained

funds -- violated the Establishment Clause.
Relying

entirely

on

a

thorough

analysis

by

public

Id. at 2074, 2077.
of

the

cross

as

a

historical symbol (and of the erection of the Bladensburg Cross in

5

Perrier-Bilbo unconvincingly avers that Town of Greece is
inapposite to her case and faults the district court for relying
on it. However, not only did the district court rely primarily
on Town of Greece for fairly broad propositions of law that
transcend Perrier-Bilbo's attempts to distinguish her case, but
the two cases are in fact quite similar.
In both cases, the
non-adherent plaintiffs were not forced to participate in the
contested practice because they could opt out, and they could not
allege more than mere exposure to the language at issue.
-16-

APP. 016

Case: 18-2085

Document: 00117573783

Page: 17

Date Filed: 04/03/2020

Entry ID: 6329824

particular), it concluded that the monument complied with the
Establishment Clause.

Id. at 2085-90.

The Court reasoned that

the cross, though a symbol of Christianity, had taken on a secular
meaning in many contexts, id. at 2074, and that many Americans
during and immediately after World War I came to associate the
image of a simple white cross with memorializing those who died in
the war, id. at 2075–76.

Thus, "the image used in the Bladensburg

memorial . . . also took on new meaning after World War I."
at 2075.

Id.

Similarly, the Court found that the cross had, "with the

passage of time," "acquired historical importance."
Ultimately,

it

concluded

that,

even

though

Id. at 2089.

the

cross

is

"undoubtedly a Christian symbol," "that fact should not blind us
to

everything

represent."

else

that

the

Bladensburg

Cross

has

come

to

Id. at 2090.

The American Legion Court also explicitly rejected the
application of the three-pronged test pronounced in Lemon v.
Kurtzman, 403 U.S. 602, 612-13 (1971) (requiring that a law "have
a secular legislative purpose," that its "principal . . . effect
. . . be one that neither advances nor inhibits religion," and
that it does not "foster 'an excessive government entanglement
with religion,'" (citations omitted)), to evaluate Establishment
Clause challenges in cases involving "the use, for ceremonial,
celebratory, or commemorative purposes, of words or symbols with

-17-

APP. 017

Case: 18-2085

Document: 00117573783

religious

associations"

Page: 18

and

Date Filed: 04/03/2020

"certain

Entry ID: 6329824

references

to,

and

invocations of, the Deity in the public words of public officials
[and]

the

public

buildings."6

references

to

Id. at 2080–81.

God

on

coins,

decrees,

and

Rather, the Supreme Court adopted

"a presumption of constitutionality" for religiously expressive
"longstanding monuments, symbols, and practices."
In

reaching

that

holding,

it

application

of

a

presumption

suited

these

situations

for

provided
of
than

four

Id. at 2082.

reasons

constitutionality
the

Lemon

test:

why

was

the

better

(1)

when

6

This departure from the Lemon test is not inconsistent with how
the Supreme Court has evaluated Establishment Clause cases in the
past using a variety of measures and frameworks, recognizing that
the framework must suit the facts of the case. See Salazar v.
Buono, 559 U.S. 700, 721 (2010) (noting that an Establishment
Clause challenge should be "assessed in the context of all relevant
factors"); Lee v. Weisman, 505 U.S. 577, 597 (1992) ("Our
Establishment Clause jurisprudence remains a delicate and
fact-sensitive one."); Newdow v. Roberts, 603 F.3d 1002, 1017 (D.C.
Cir. 2010) (Kavanaugh, J., concurring in judgment) ("[T]he Supreme
Court's Establishment Clause jurisprudence does not set forth a
one-size-fits-all test.
Rather, the Court ordinarily analyzes
cases under various issue-specific rules and standards it has
devised." (internal citations omitted)).
Notably, the Supreme
Court has held that the Lemon factors were "no more than helpful
signposts," Hunt v. McNair, 413 U.S. 734, 741 (1973), and it has
"either expressly declined to apply the test or has simply ignored
it" in several cases, Am. Legion, 139 S. Ct. at 2080 (compiling
cases); see also Van Orden v. Perry, 545 U.S. 677, 686 (2005)
("Many of [the Supreme Court's] recent cases simply have not
applied the Lemon test." (citing Zelman v. Simmons-Harris, 536
U.S. 639 (2002) and Good News Club v. Milford Cent. Sch., 533 U.S.
98 (2001))). Indeed, the American Legion Court expressed that the
Supreme Court has "taken a more modest approach that focuses on
the particular issue at hand and looks to history for guidance."
Am. Legion, 139 S. Ct. at 2087.
-18-

APP. 018

Case: 18-2085

Document: 00117573783

Page: 19

Date Filed: 04/03/2020

Entry ID: 6329824

monuments, symbols, or practices were originally established long
ago,

"identifying

their

original

purpose

or

purposes

may

be

especially difficult"; (2) with the passage of time, "the purposes
associated with an established monument, symbol, or practice" and
the reasons for maintaining them "often multiply"; (3) the message
conveyed by the monument, symbol, or practice may evolve over time
and "[t]he community may come to value them without necessarily
embracing their religious roots"; and (4) when the monument,
symbol,

or

practice

has

become

familiar

and

of

historical

significance, "removing it may no longer appear neutral" but
"aggressively hostile to religion."

Id. at 2081–85.

Finally,

the Supreme Court suggested that the presumption could be overcome
by a showing of discriminatory intent in the decision to maintain
the

challenged

practice

or

by

a

showing

of

"deliberate[]

disrespect[]" by that practice on the basis of religion.

See id.

at 2074, 2089.
We follow the Supreme Court's most recent framework and
apply American Legion's presumption of constitutionality to the
phrase "so help me God" in the naturalization oath because we
consider the inclusion of similar words to be a ceremonial,
longstanding practice as an optional means of completing an oath.7

7

We have evaluated Establishment Clause challenges under three
analytical approaches espoused by the Supreme Court: (1) the
three-pronged Lemon test already described; (2) the "endorsement"
-19-

APP. 019

Case: 18-2085

Document: 00117573783

Page: 20

Date Filed: 04/03/2020

Entry ID: 6329824

And because the record does not demonstrate a discriminatory intent
in maintaining those words in the oath or "deliberate disrespect"
by the inclusion of the words, Perrier-Bilbo cannot overcome the
presumption.8
In American Legion, the Supreme Court held that the
presumption

of

constitutionality

applies

to

"established,

religiously expressive monuments, symbols, and practices."
at 2085.

Id.

As the district court recognized, there is an established

history of invocations of God in public oaths and statements
tracing back to the founding era.

See Elk Grove Unified Sch.

analysis fashioned in Justice O'Connor's concurrence in Lynch v.
Donnelly, 465 U.S. at 688, which instructs the courts to determine
whether the challenged action "has the effect of endorsing or
disapproving religious beliefs," Cty. of Allegheny, 492 U.S. at
597; and (3) the coercion analysis employed in Lee v. Weisman,
where the Supreme Court held that "the Constitution guarantees
that government may not coerce anyone to support or participate in
religion or its exercise," 505 U.S. at 587.
See Freedom From
Religion Found., 626 F.3d at 7 (outlining the three analytical
approaches in Establishment Clause challenges). But none of these
analytical approaches apply in the case at hand because, as we
find today, it is more properly analyzed through the American
Legion lens.
8

Our reasoning permissibly differs from that of the district
court, whose opinion pre-dated the Supreme Court's holding in
American Legion. When reviewing de novo, "[w]e are at liberty to
affirm a district court's judgment on any ground made manifest by
the record, whether or not that particular ground was raised
below." United States v. George, 886 F.3d 31, 39 (1st Cir. 2018)
(citing United States v. Zorrilla-Echevarría, 723 F.3d 298, 300
(1st Cir. 2013)).
We also note that American Legion post-dated
the briefing in this case and therefore, the parties' briefs do
not discuss how that case might apply.
-20-

APP. 020

Case: 18-2085

Document: 00117573783

Page: 21

Date Filed: 04/03/2020

Entry ID: 6329824

Dist., 542 U.S. at 26-29 (Rehnquist, C.J., concurring in judgment)
(listing examples of "patriotic invocations of God and official
acknowledgements of religion's role in our Nation's history,"
including

in

presidential

speeches,

statements,

and

proclamations); Newdow v. Roberts, 603 F.3d 1002, 1018 (D.C. Cir.
2010) (Kavanaugh, J., concurring in judgment) (noting that the
"use of 'so help me God' in oaths for government officials is
deeply rooted in the Nation's history and tradition" and observing
that "[s]tate constitutions in effect at the ratification of the
First Amendment similarly included 'so help me God' in state
officials' oaths of office," and those words "remain to this day
a part of oaths prescribed by law at the federal and state
levels").

Applicants for naturalization have taken an oath of

allegiance since the first naturalization law in 1790, and the
oath's

language,

first

standardized

by

regulation

in

1929,

included the phrase "so help me God."9

That language has been

included as an option at least since 1957.

See Oath of Allegiance,

22 Fed. Reg. 9,765, 9,824 (Dec. 6, 1957).
that

the

inclusion

of

the

phrase

"so

Thus, we can conclude
help

me

God"

in

the

9

Naturalization Oath of Allegiance to the United States of
America: History, U.S. Citizenship and Immigration Servs.,
https://www.uscis.gov/us-citizenship/naturalizationtest/naturalization-oath-allegiance-united-states-america
(last
updated June 25, 2014) (last accessed Mar. 20, 2020).
-21-

APP. 021

Case: 18-2085

Document: 00117573783

Page: 22

Date Filed: 04/03/2020

Entry ID: 6329824

naturalization oath as an option and its recital as an exercise of
that option should be considered an established practice.
Furthermore, the words "so help me God" in the oath are
religiously expressive.

We have acknowledged before that the

phrase "under God" has "some religious content" that cannot be
"deplete[d]" by the simple act of repetition of the phrase in
secular ceremonies.

Freedom From Religion Found., 626 F.3d at 7.

In Freedom From Religion Foundation, we recognized that "[a] belief
in God is a religious belief," and the phrase "under God" had
religious content because "those who are religious, as well as
those who are not, could reasonably be offended by the claim that"
the phrase lacked religious content.

Id. (citing Myers v. Loudoun

Cty. Pub. Sch., 418 F.3d 395, 407 (4th Cir. 2005)).

Following

that reasoning, the phrase "so help me God" at issue here certainly
is religiously expressive too.

This, however, does not mean the

religiously

cannot

expressive

phrase

also

pass

Establishment

Clause muster.

See id. at 7-8 ("That the phrase 'under God' has

some

content,

religious

however,

is

not

challenged statute's] constitutionality.

determinative

of

[a

This is in part because

the Constitution does not 'require complete separation of church
and state.'" (quoting Lynch, 465 U.S. at 673)); see also Van Orden
v. Perry, 545 U.S. 677, 690 (2005) (holding that "[s]imply having
religious

content

or

promoting

a

message

consistent

with

a

-22-

APP. 022

Case: 18-2085

Document: 00117573783

Page: 23

Date Filed: 04/03/2020

Entry ID: 6329824

religious doctrine does not run afoul of the Establishment Clause"
(citing Lynch, 465 U.S. at 680, 687)).
Because the inclusion of the religiously expressive
phrase "so help me God" in the naturalization oath as an option
for completing it follows the pattern of an established practice,
we

conclude

that

constitutionality."
Moreover,

it

triggers

the

"strong

presumption

of

Am. Legion, 139 S. Ct. at 2085.
this

case

satisfies

each

of

the

four

justifications for applying the presumption laid out in American
Legion.10

First, aspiring United States citizens have recited the

naturalization oath with the words "so help me God" for at least
ninety years, but we cannot pinpoint the specific reason for the
inclusion of the phrase.

Perhaps it was to mirror other official

oaths,

government

like

those

for

officials,

or

perhaps

the

inclusion of the phrase as an option would appear to follow in the
tradition of "recogni[zing] . . . the important role that religion
plays in the lives of many Americans." Id. at 2089.

Nevertheless,

discerning

the

the

original

purpose

here

presents

kind

of

difficulty American Legion contemplated.

10

We do not read American Legion to require that the four
justifications be met in every case. They merely "counsel" toward
application of the presumption. See id. at 2081–82.
-23-

APP. 023

Case: 18-2085

Document: 00117573783

Page: 24

Date Filed: 04/03/2020

Entry ID: 6329824

The second and third justifications are also present
here where the purpose of including and maintaining the phrase "so
help me God" as an option in the oath for nearly a century, and
the message conveyed by its recitation, have likely multiplied and
evolved over time.

See id. at 2082–84.

"Even if the original

purpose of [the phrase] was infused with religion, the passage of
time may obscure that sentiment."

Id. at 2083.

Different people

may have different reasons for wanting to preserve the phrase in
the oath.
people,

Just as the words might not mean anything to some

others

"may

come

to

value

them

without

necessarily

embracing their religious roots," id. at 2084, and others yet might
read them as acknowledging "the centrality of faith" in their
lives, id. at 2086.

See Elk Grove Unified Sch. Dist., 542 U.S.

at 26 (Rehnquist, C.J., concurring in judgment) ("To the millions
of people who regularly recite the Pledge, . . . 'under God' might
mean several different things . . . .

How much consideration

anyone gives to the phrase probably varies, since the Pledge itself
is a patriotic observance focused primarily on the flag and the
Nation, and only secondarily on the description of the Nation.").
It is also important to note that the phrase "so help me God" only
makes up four words out of the 140-word oath, and American Legion
instructs that we must view the challenged practice and consider
the overall message conveyed by it against the context in which it

-24-

APP. 024

Case: 18-2085

Document: 00117573783

appears.

Page: 25

Date Filed: 04/03/2020

Am. Legion, 139 S. Ct. at 2074-78.

Entry ID: 6329824

The existence of

multiple purposes and meanings for the phrase within the oath is
further highlighted by the fact that the regulations allow for the
alteration of the oath for those who do not wish to say the disputed
phrase.

See 8 C.F.R. § 337.1(b).

Thus, as in American Legion,

despite the inclusion of a religiously expressive phrase in the
oath, its repetition for the past ninety years, coupled with the
ability to alter the oath, shows that the practice of permitting
the religious phrase to be used to complete the oath has a secular
end, and society may have preserved the practice "for the sake of
[its] historical significance or [its] place in a common cultural
heritage."

Am. Legion, 139 S. Ct. at 2083.
Finally, just as the American Legion Court suggested,

requiring the removal of the phrase "so help me God" from the
naturalization oath may "strike many as aggressively hostile to
religion," id. at 2085, and that lack of neutrality would not
comport with the Establishment Clause, see Van Orden, 545 U.S. at
683–84 (noting that we should "neither abdicate our responsibility
to maintain a division between church and state nor evince a
hostility to religion by disabling the government from in some
ways recognizing our religious heritage").

As we already noted,

the phrase "so help me God" in the naturalization oath fits within
the tradition of ceremonial references to God as an optional means

-25-

APP. 025

Case: 18-2085

Document: 00117573783

of completing an oath.

Page: 26

Date Filed: 04/03/2020

Entry ID: 6329824

Furthermore, the oath has seemingly gone

unchallenged on the ground that it includes the objectionable
phrase.
have

This suggests that "few individuals . . . are likely to

understood

[the

inclusion

of

"so

help

me

God"

in

the

naturalization oath] as amounting . . . to a government effort to
favor a particular religious sect [or] to promote religion over
nonreligion."

Id. at 702 (Breyer, J., concurring in judgment).

Thus, by removing the language we "may no longer appear neutral,"
Am. Legion, 139 S. Ct. at 2084, and we may even encourage future
disputes over similar longstanding language in practices across
the United States, see Van Orden, 545 U.S. at 704 (Breyer, J.,
concurring in judgment).
Having established that all four considerations are
present in this case, we are confident that it fits squarely within
the

American

Legion

constitutionality

framework

applies.

and

Thus,

that
we

the

turn

presumption

of

the

to

to

record

determine whether Perrier-Bilbo can overcome the presumption.
After careful review, we believe she is unable to do so.

decision

We

cannot

to

maintain

naturalization

discern

oath,

the
or,

any

discriminatory

phrase

"so

help

alternatively,

intent

in

the

me

God"

in

the

a

"deliberate[]

disrespect[]" by the recitation of the oath on the basis of
religion.

See Am. Legion, 139 S. Ct. at 2074, 2089.

To challenge

-26-

APP. 026

Case: 18-2085

Document: 00117573783

Page: 27

Date Filed: 04/03/2020

Entry ID: 6329824

the district court's opinion, Perrier-Bilbo offered: (1) a single
webpage challenging the validity of the proposition that George
Washington actually spoke the phrase "so help me God" when taking
his first oath of office; (2) evidence about the general intent of
the Framers to keep Church and State separate; and (3) a claim
that the nation's first statute "involved the affirmative removal
of the two references to God in the oath" taken by members of
Congress.

Undermining a single source of historical evidence,

however, does not negate the existence of an otherwise credible
historical pattern; nor does offering evidence that speaks against
the inclusion of the language in one particular oath, or other
general evidence about the importance of separation of Church and
State.

Perrier-Bilbo also makes the conclusory assertion that the

phrase "so help me God" is "facially religiously discriminatory"
and

"a

purely

religious

phrase

inserted

by

Monotheistic

Supremacists because it makes them feel good to have the government
advocate

for

their

religious

ideals."

But

she

presents

no

evidence to suggest that the Government has retained the phrase in
the

oath

for

any

discriminatory

reasons

or

that

the

oath

deliberately disrespects individuals based on religion, especially
in light of the fact that the oath can be modified for those who
oppose reciting the phrase "so help me God."

-27-

APP. 027

Case: 18-2085

Document: 00117573783

Ultimately,

Page: 28

the

Date Filed: 04/03/2020

record

does

not

Entry ID: 6329824

demonstrate

discriminatory intent or deliberate disrespect by the inclusion
and recitation of "so help me God" in the naturalization oath, and
Perrier-Bilbo cannot overcome American Legion's presumption of
constitutionality.

Accordingly, we hold that, under the most

recent framework used to evaluate whether established practices
with

religious

content

violate

the

Establishment

Clause,

the

phrase "so help me God" in the naturalization oath as a means of
completing that oath does not violate the Constitution.
in

turn,

that

the

district

court

correctly

We find,
dismissed

Perrier-Bilbo's Establishment Clause claim.
2.

Free Exercise Claim
We now consider whether the phrase "so help me God" in

the oath violates the Free Exercise Clause of the First Amendment.
The Free Exercise Clause guarantees that "Congress shall make no
law . . . prohibiting the free exercise [of religion]."
Const.

amend.

government

I.

from

The
"(1)

Free

Exercise

compel[ling]

Clause

affirmation

prohibits
of

U.S.
the

religious

beliefs; (2) punish[ing] the expression of religious doctrines it
believes to be false; (3) impos[ing] special disabilities on the
basis of religious views or religious status; or (4) lend[ing] its
power to one side or the other in controversies over religious
authorities or dogma."

Freedom From Religion Found., 626 F.3d at

-28-

APP. 028

Case: 18-2085

Document: 00117573783

Page: 29

Date Filed: 04/03/2020

Entry ID: 6329824

14 (quoting Parker v. Hurley, 514 F.3d 87, 103 (1st Cir. 2008)).11
A plaintiff alleging a Free Exercise violation must show that a
government action has a coercive effect on her religious practice.
Parker, 514 F.3d at 103 (quoting Sch. Dist. of Abington Twp. v.
Schempp, 374 U.S. 203, 223 (1963)).
Perrier-Bilbo

first

faults

the

district

court

for

relying on Parker v. Hurley12 because, according to her, that case
applies to "generally applicable, religion-neutral laws," and here
the phrase "so help me God" is a religious phrase espousing a
"particular religious view."
should apply instead.

She contends that strict scrutiny

But her argument is unavailing because the

practice of permitting the naturalization oath to be completed
with religious language, as we indicated above, is indeed neutral
as a whole and of general applicability, and such laws "need not
be justified by a compelling governmental interest even if the law
has the incidental effect of burdening a particular religious
practice."

11

Church of the Lukumi Babalu Aye, Inc. v. City of

We refer to these prohibitions as the "Parker prohibitions."

12

514 F.3d 87 (1st Cir. 2008) (affirming dismissal of lawsuit
brought by parents against a school system claiming that an
elementary school violated their constitutional rights by exposing
their children to books portraying different kinds of families,
including same-sex couples).
-29-

APP. 029

Case: 18-2085

Document: 00117573783

Page: 30

Date Filed: 04/03/2020

Entry ID: 6329824

Hialeah, 508 U.S. 520, 531 (1993) (citing Emp't Div., Dep't of
Human Res. of Or. v. Smith, 494 U.S. 872, 883 (1990)).
A law that "infringe[s] upon or restrict[s] practices
because of their religious motivation" or "refers to a religious
practice without a secular meaning discernable from the language
or context" is not a neutral law.
U.S. at 878-79).

Id. at 533 (citing Smith, 494

While the phrase "so help me God" has a religious

connotation, there is no evidence that it was included as an option
in the oath to target or suppress religious beliefs.
discern

that

this

option

creates

any

"covert

Nor can we

suppression

of

particular religious beliefs," id. at 534 (quoting Bowen v. Roy,
476

U.S.

693,

accommodations.

703

(1986)),

especially

given

the

available

Because we find that the oath is neutral and of

general applicability, we conclude that the district court did not
err in relying on Parker, as that case sets forth the applicable
framework to evaluate the free exercise claim.
We agree with the district court that Perrier-Bilbo's
free exercise claim fails because she has not demonstrated that
the Government has coerced her into violating or changing her
religious beliefs or practices.

We also find that none of the

prohibitions set forth in Parker are of concern in this case.13

13

Perrier-Bilbo concedes that the second Parker prohibition -that the government may not "punish the expression of religious
doctrines it believes to be false," Parker, 514 F.3d at 103 -- is
-30-

APP. 030

Case: 18-2085

Document: 00117573783

Page: 31

Date Filed: 04/03/2020

Entry ID: 6329824

To begin, the Government has not imposed a requirement that
Perrier-Bilbo "agree with or affirm" the phrase "so help me God."
Freedom From Religion Found., 626 F.3d at 14 (quoting Parker, 514
F.3d at 106).

Nor does she develop an argument to the contrary

that accounts for the option of remaining silent.

Nevertheless,

Perrier-Bilbo argues that she would still be compelled to affirm
a religious belief she does not share if she were to take part in
an oath ceremony where the phrase is used by others.

Mere exposure

to

not

different

religious

ideas,

however,

does

prevent

Perrier-Bilbo from ascribing to or pursuing her own beliefs.

See

Town of Greece, 572 U.S. at 590 ("But in the general course
legislative bodies do not engage in impermissible coercion merely
by exposing constituents to prayer they would rather not hear and
in which they need not participate." (citing Cty. of Allegheny,
492 U.S. at 670 (Kennedy, J., concurring in judgment in part and
dissenting in part))); see also Freedom From Religion Found., 626
F.3d at 14 ("Because the Doe children allege mere exposure to the
religious content of the Pledge, they cannot state a claim under
the Free Exercise Clause, nor can their parents, as 'the mere fact
that a child is exposed on occasion . . . to a concept offensive
to a parent's religious belief does not inhibit the parent from

not relevant to this case.
-31-

APP. 031

Case: 18-2085

Document: 00117573783

Page: 32

Date Filed: 04/03/2020

Entry ID: 6329824

instructing the child differently.'" (quoting Parker, 514 F.3d at
105)).

Thus, Perrier-Bilbo cannot establish a free exercise

violation

arising

out

of

her

exposure

to

other

soon-to-be-

citizens' recital of the naturalization oath containing the phrase
to which she personally objects.
Additionally, Perrier-Bilbo argues that the Government
"has imposed the special disability that keeps her from being an
equal in the naturalization oath ceremony" because of her beliefs.
But the reason Perrier-Bilbo has not yet secured citizenship is
because of her demand that the Government modify the ceremony for
everyone else -- including for those who have not requested this
modification -- so that she can adhere to her own beliefs.

The

Government is not required to further Perrier-Bilbo's spiritual
development or conform to her religious beliefs.

See Bowen, 476

U.S. at 699 ("The Free Exercise Clause simply cannot be understood
to require the [g]overnment to conduct its own internal affairs in
ways

that

comport

with

the

religious

beliefs

of

particular

citizens.").
Perrier-Bilbo also contends that the Government has
violated the last Parker prohibition by "lending its power to the
side that believes that God exists."

But having found that the

oath complies with the Establishment Clause, her claim that the

-32-

APP. 032

Case: 18-2085

Document: 00117573783

Page: 33

Date Filed: 04/03/2020

Entry ID: 6329824

inclusion of the phrase "so help me God" signifies governmental
favoritism of theism is unpersuasive.
Finally, while Perrier-Bilbo acknowledges that she does
not have to utter the words "so help me God," she still finds that
her religious beliefs are disrespected if she participates in a
ceremony in which others recite the phrase.

We do not second-guess

the sincerity of Perrier-Bilbo's beliefs or her feeling of distress
upon hearing the phrase at issue.

But even if the phrase offends

her, offense "does not equate to coercion," Town of Greece, 572
U.S. at 589, and the Free Exercise Clause does not entitle her to
a change in the oath's language as it pertains to others, see Elk
Grove Unified Sch. Dist., 542 U.S. at 44 (O'Connor, J., concurring)
("[T]he Constitution does not guarantee citizens a right entirely
to avoid ideas with which they disagree."); see also Bowen, 476
U.S. at 700 ("[T]he Free Exercise Clause is written in terms of
what the government cannot do to the individual, not in terms of
what the individual can extract from the government." (alteration
in original) (quoting Sherbert v. Verner, 374 U.S. 398, 412 (1963)
(Douglas, J., concurring))).

Accordingly, her free exercise claim

fails.
3.

The Religious Freedom Restoration Act Claim
We now turn to whether the inclusion of the phrase "so

help

me

God"

in

the

naturalization

oath

violates

RFRA.

-33-

APP. 033

Case: 18-2085

Document: 00117573783

Page: 34

Date Filed: 04/03/2020

Entry ID: 6329824

Perrier-Bilbo contends that RFRA provides greater protection than
the Free Exercise Clause of the First Amendment.
broader

protection,

Perrier-Bilbo

believes

Under this

that

we

must

acknowledge her sincere belief in atheism and find that the
Government's inclusion of the phrase "so help me God" in the
naturalization oath has forced her to choose between beginning her
citizenship "as an equal among her co-participants at the price of
violating

her

sincerely

held

religious

beliefs"

and

"freely

exercising her religious beliefs at the price of sacrificing the
ability to start off her American citizenship . . . as an equal
among her co-participants."

She argues that the inclusion of that

phrase "substantially burdens her free religious exercise."
RFRA, as Perrier-Bilbo appropriately contends, offers
"very broad protection for religious liberty."

Burwell v. Hobby

Lobby Stores, Inc., 573 U.S. 682, 693 (2014).

It prohibits the

government from "substantially burden[ing] a person's exercise of
religion

even

applicability,"

if

the

burden

unless

the

results

from

government

a

rule

of

general

"demonstrates

that

application of the burden to the person (1) is in furtherance of
a

compelling

restrictive
interest."

governmental

means

of

interest;

furthering

that

42 U.S.C. § 2000bb-1(a)-(b).

and

(2)

is

compelling

the

least

governmental

A plaintiff alleging a

RFRA claim has the initial burden of establishing a prima facie

-34-

APP. 034

Case: 18-2085

case

Document: 00117573783

by

showing

that

the

Page: 35

Date Filed: 04/03/2020

application

of

the

Entry ID: 6329824

challenged

substantially burdens a sincere religious exercise.

law

See Gonzales

v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S. 418,
428 (2006).

While "substantial burden" is not defined in RFRA,

case law counsels that a substantial burden on one's exercise of
religion

exists

"[w]here

the

state

conditions

receipt

of

an

important benefit upon conduct proscribed by a religious faith, or
where it denies such a benefit because of conduct mandated by
religious

belief,

thereby

putting

substantial

pressure

on

an

adherent to modify his behavior and to violate his beliefs."
Thomas v. Review Bd. of Ind. Emp't Sec. Div., 450 U.S. 707, 717-18
(1981); see also Navajo Nation v. U.S. Forest Serv., 535 F.3d 1058,
1069–70 (9th Cir. 2008) ("Under RFRA, a 'substantial burden' is
imposed

only

when

individuals

are

forced

to

choose

between

following the tenets of their religion and receiving a governmental
benefit . . . or [are] coerced to act contrary to their religious
beliefs by the threat of civil or criminal sanctions.").
The district court found that, in light of the two
options

afforded

to

Perrier-Bilbo

to

avoid

the

phrase,

the

Government has not put "substantial pressure" on her to violate
her sincere beliefs in order to naturalize.

And Perrier-Bilbo's

argument that she was forced or pressured to choose between
following the tenets of her religion and receiving the benefit of

-35-

APP. 035

Case: 18-2085

Document: 00117573783

Page: 36

Date Filed: 04/03/2020

Entry ID: 6329824

naturalization fails to account for the option she was given of
remaining silent because she can naturalize without saying the
phrase that violates her religious beliefs, or even without hearing
it spoken if she naturalizes in a private ceremony.

Nor does she

argue that she is being penalized for practicing her religious
beliefs.
can

The Government has provided her with options so that she

adhere

to

her

religious

beliefs

while

still

taking

the

naturalization oath, be it with the rest of the prospective
citizens or in a private ceremony.

The Government has only stopped

Perrier-Bilbo from imposing her religious mandates on others.

See

Navajo Nation, 535 F.3d at 1063-64 (describing as problematic the
idea that, without a "substantial burden," RFRA would give each
citizen an individual veto when a practice offended his religious
beliefs

or

sensibilities,

despite

depriving

others

of

a

governmental benefit).
While

she

might

find

the

options

offered

by

the

Government subjectively burdensome, however, the district court
was right to conclude that not every imposition or inconvenience
rises to the level of a "substantial burden."

See Gary S. v.

Manchester Sch. Dist., 374 F.3d 15, 21-22 (1st Cir. 2004) (finding
that a government program imposed no cognizable burden for the
purposes of RFRA despite the plaintiffs' belief that such program
violated their free exercise rights); New Doe Child #1 v. United

-36-

APP. 036

Case: 18-2085

Document: 00117573783

Page: 37

Date Filed: 04/03/2020

Entry ID: 6329824

States, 901 F.3d 1015, 1026-27 (8th Cir. 2018) (finding that "not
all

burdens

constitute

substantial

burdens"

and

"mere

inconvenience" does not always amount to a substantial burden);
New Doe Child #1 v. Congress of U.S., 891 F.3d 578, 590 (6th Cir.
2018) (finding that a substantial burden must be "more than a 'mere
inconvenience'"); Worldwide Church of God v. Phila. Church of God,
Inc., 227 F.3d 1110, 1121 (9th Cir. 2000) (same).

Because we find

that Perrier-Bilbo failed to establish that the Government imposed
a substantial burden on her exercise of religion, our RFRA analysis
ends here.
4.

Equal Protection Under the Fifth Amendment Claim
"The liberty protected by the Fifth Amendment's Due

Process Clause contains within it the prohibition against denying
to any person the equal protection of the laws."
v. Windsor, 570 U.S. 744, 774 (2013).

United States

That Clause prohibits the

government from "invidiously discriminating between individuals or
groups."

Washington v. Davis, 426 U.S. 229, 239 (1976) (citing

Bolling v. Sharpe, 347 U.S. 497 (1954)).

To establish an equal

protection claim, a plaintiff must show that, "compared with others
similarly situated, the plaintiff was treated differently because
of an improper consideration, such as his religion."14

Kuperman

14

We evaluate Fifth Amendment equal protection claims under the
same standards as equal protection claims under the Fourteenth
Amendment.
Adarand Constructors, Inc. v. Pena, 515 U.S. 200,
-37-

APP. 037

Case: 18-2085

Document: 00117573783

Page: 38

Date Filed: 04/03/2020

Entry ID: 6329824

v. Wrenn, 645 F.3d 69, 77–78 (1st Cir. 2011) (citing Tapalian v.
Tusino, 377 F.3d 1, 5 (1st Cir. 2004)).
Invoking

the

Fifth

Amendment's

equal

protection

guarantees, Perrier-Bilbo asserts that offering her a separate,
private ceremony in which the oath would not contain the phrase
"so help me God" violates the principle that "separate . . .
facilities are inherently unequal." She equates the accommodations
the Government offered her to the segregation policies at issue in
Plessy v. Ferguson, 163 U.S. 537 (1896), and those struck down in
Brown v. Board of Education, 347 U.S. 483 (1954).
Despite her efforts, Perrier-Bilbo fails to show that,
based on her religion, she was treated differently from other
similarly
recital

of

situated
the

prospective

naturalization

citizens
oath.

with

Indeed,

regards
the

to

the

regulation

providing the language of the oath does not "'require different
treatment of any class of people because of their religious
beliefs,'

nor

does

it

'give

preferential

treatment

to

any

217-18 (1995); see also United States v. Paradise, 480 U.S. 149,
166 n.16 (1987) (noting that "the reach of the equal protection
guarantee of the Fifth Amendment is coextensive with that of the
Fourteenth"); Buckley v. Valeo, 424 U.S. 1, 93 (1976) ("Equal
protection analysis in the Fifth Amendment area is the same as
that under the Fourteenth Amendment."); Weinberger v. Wiesenfeld,
420 U.S. 636, 638 n.2 (1975) ("[The Supreme Court's] approach to
Fifth Amendment equal protection claims has always been precisely
the same as to equal protection claims under the Fourteenth
Amendment.").
-38-

APP. 038

Case: 18-2085

Document: 00117573783

particular religion.'"

Page: 39

Date Filed: 04/03/2020

Entry ID: 6329824

Freedom From Religion Found., 626 F.3d at

14 (quoting Wirzburger v. Galvin, 412 F.3d 271, 283 (1st Cir.
2005)).

Rather, as the district court correctly reasoned, the

fact that the phrase "so help me God" makes up part of the oath
does not take away from the fact that the regulation "applies
equally to those who believe in God, those who do not, and those
who do not have a belief either way, giving adherents of all
persuasions

the

right

to

participate

reciting the naturalization oath.

or

not

participate"

in

Perrier-Bilbo, 346 F. Supp. 3d

at 223 (quoting Freedom From Religion Found., 626 F.3d at 14).
The regulation requires all applicants for citizenship, regardless
of their religious beliefs, to take the oath.

The provision

allowing applicants that do not wish to say the phrase "so help me
God" for religious or other reasons to modify the language of the
oath, see 8 C.F.R. § 337.1(b), further proves that the regulation
applies equally to all applicants.
Moreover,

Perrier-Bilbo's

comparison

of

the

accommodation of a separate, private naturalization ceremony to
the kind of segregation policies at issue in Plessy and Brown is
inapposite.

Unlike those invidious segregation policies and the

relegation of black people to separate facilities, designed to
keep individuals of different races apart from one another, the
private ceremony offered to Perrier-Bilbo was proposed as an

-39-

APP. 039

Case: 18-2085

Document: 00117573783

Page: 40

Date Filed: 04/03/2020

Entry ID: 6329824

accommodation for her religious beliefs, after she expressed that
she could not recite the phrase "so help me God" and did not want
others around her to recite it either.
attempting to segregate her in any way.

The Government is not
She is still welcome to

attend the public ceremony from which she claims she is excluded
and to refrain from speaking, or even engaging with, the phrase
her beliefs proscribe.
In

sum,

because

the

regulation

does

not

"create[]

different rules for distinct groups of individuals based on a
suspect

classification,"

Wirzburger,

412

F.3d

at

283,

Perrier-Bilbo's equal protection claim fails.
5.

Fifth Amendment's Due Process Clause Claim
Next, invoking the Fifth Amendment's Due Process Clause,

Perrier-Bilbo argues that she "has a protected liberty interest in
not having the law exclude her from the oath ceremony of her choice
on the basis of her religious belief."

The district court found

below that Perrier-Bilbo had failed to establish a procedural due
process claim.

We agree.

Procedural

due

process

guarantees

that

"before

a

significant deprivation of liberty or property takes place at the
state's hands, the affected individual must be forewarned and
afforded an opportunity to be heard 'at a meaningful time and in
a meaningful manner.'"

González-Droz v. González-Colón, 660 F.3d

-40-

APP. 040

Case: 18-2085

Document: 00117573783

Page: 41

Date Filed: 04/03/2020

Entry ID: 6329824

1, 13 (1st Cir. 2011) (quoting Amsden v. Moran, 904 F.2d 748, 753
(1st Cir. 1990)).

"To state a valid procedural due process claim,

a plaintiff must (1) 'identify a protected liberty or property
interest,' and (2) 'allege that the defendants . . . deprived
[her]

of

process.'"

that

interest

without

constitutionally

adequate

Air Sunshine, Inc. v. Carl, 663 F.3d 27, 34 (1st Cir.

2011) (quoting González-Droz, 660 F.3d at 13).
Perrier-Bilbo fails to identify a protected "liberty
interest" at issue here.15

We have not found, and Perrier-Bilbo

does not cite, any case law that would entitle her to relief based
on her alleged exclusion from the oath ceremony of her choice.
While the Supreme Court has not clearly defined "liberty" in the
Fifth Amendment Due Process Clause context, it has found the term
not to be "confined to mere freedom from bodily restraint."

Bd. of

Regents of State Colls. v. Roth, 408 U.S. 564, 572 n.11 (1972)
(quoting Bolling, 347 U.S. at 499).

In the Fourteenth Amendment

Due Process Clause context, however, "the term has received much
consideration and some of the included things have been definitely
stated."

Id. at 572.

Because of the aforementioned parallelism

between the Due Process Clauses of the Fifth and Fourteenth
Amendments, we look to the Supreme Court's interpretation of

15

In her briefing to this Court, Perrier-Bilbo did not identify
or claim that any protected property interest was at play here.
-41-

APP. 041

Case: 18-2085

Document: 00117573783

Page: 42

Date Filed: 04/03/2020

Entry ID: 6329824

"liberty" in the Fourteenth Amendment context for guidance.

See

Paul v. Davis, 424 U.S. 693, 702 n.3 (1976).
The Supreme Court has found that the term "liberty"
denotes not merely freedom from bodily restraint but
also the right of the individual to contract, to
engage in any of the common occupations of life, to
acquire useful knowledge, to marry, establish a home
and bring up children, to worship God according to
the dictates of his own conscience, and generally to
enjoy those privileges long recognized . . . as
essential to the orderly pursuit of happiness by free
men.
Roth, 408 U.S. at 572 (quoting Meyer v. Nebraska, 262 U.S. 390,
399 (1923)).

Perrier-Bilbo's asserted interest comes within none

of those protected areas.

A due process claim requires that a

"'cognizable liberty or property interest be at stake,'" Rivera v.
Sessions, 903 F.3d 147, 150–51 (1st Cir. 2018) (quoting Kandamar
v. Gonzales, 464 F.3d 65, 69 (1st Cir. 2006)), and none is present
here.

Although the Due Process Clause may protect her ability to

"worship God according to the dictates of [her] own conscience,"
Roth, 408 U.S. at 572 -- a protection which presumably encapsulates
Perrier-Bilbo's right not to worship any god -- the Government has
not

prevented

Perrier-Bilbo

from

expressing

her

atheistic

religious beliefs. Nor can Perrier-Bilbo claim that the regulation
prescribing the oath prohibits her from having a public ceremony
during which she does not have to say the phrase "so help me God."
Rather, the regulations enable her to alter the oath, and the

-42-

APP. 042

Case: 18-2085

Document: 00117573783

Page: 43

Date Filed: 04/03/2020

Entry ID: 6329824

Government has given her alternatives to accommodate her beliefs
so that she is comfortable during her ceremony and is able to
naturalize.

Perrier-Bilbo's actual complaint seems to be that the

Government will not change the oath for everyone attending the
public

ceremony

so

that

Perrier-Bilbo objects.

no

one

utters

the

words

to

which

Perrier-Bilbo certainly does not have a

protected liberty interest in that.
Finding no protected liberty or property interest to be
implicated, we hold that the district court correctly denied
Perrier-Bilbo's procedural due process claim.

Our conclusion

makes it unnecessary to address whether any deprivation occurred
without constitutionally adequate process.

See Hewitt v. Helms,

459 U.S. 460, 472 (1983); Brown v. Hot, Sexy & Safer Prods., Inc.,
68 F.3d 525, 534 (1st Cir. 1995).
B.

Reimbursement of Application Fee
After the district court entered summary judgment for

the

Government,

Perrier-Bilbo

filed

a

post-judgment

motion

pursuant to Fed. R. Civ. P. 52(b) and 59(e)16 in which she sought
the reimbursement of the $680 application fee she paid for her
second naturalization form.

In the motion, Perrier-Bilbo attempts

16

Rule 52(b) provides for a motion to amend or make additional
findings, see Fed. R. Civ. P. 52(b), and Rule 59(e) provides for
a motion to alter or amend a judgment, see Fed. R. Civ. P. 59(e).
-43-

APP. 043

Case: 18-2085

Document: 00117573783

Page: 44

Date Filed: 04/03/2020

Entry ID: 6329824

to make out a procedural due process violation stemming from USCIS
Director

Haydon's

conduct

in

response

to

Perrier-Bilbo's

objections to the oath, and the director's handling and subsequent
designation of her application as abandoned.
that

such

a

violation

of

"basic"

due

Perrier-Bilbo argued
process

reimbursement of the second application fee.

required

the

The district court

denied the motion, only noting that the Government had prevailed
and

Perrier-Bilbo

Perrier-Bilbo's

was

argument

not
on

entitled

appeal

to

reimbursement.

reiterates

that

Director

Haydon's alleged failure to communicate with her or her attorney,
along with the handling and eventual designation of her first
application for naturalization as abandoned, amounts to a due
process violation.

We decline to consider this argument because

we find it is not properly before us.
Perrier-Bilbo's

complaint

contained

a

claim

that

a

procedural due process violation had occurred, but she alleged and
later argued in opposition to the Government's motion to dismiss
that the violation arose from the requirement to take the oath
with the words "so help me God."

While we acknowledge that her

complaint alleged and described the facts surrounding her and her
attorney's interactions with Director Haydon and the denial of the
application, it was not until her post-judgment motion that she

-44-

APP. 044

Case: 18-2085

Document: 00117573783

Page: 45

Date Filed: 04/03/2020

Entry ID: 6329824

connected those allegations to a purported, additional due process
violation and squarely presented the argument.
The purpose of Rules 52(b) and 59(e) is to allow the
court to correct or amend a judgment in the event of any manifest
errors of law or newly discovered evidence.

See Marie v. Allied

Home Mortg. Corp., 402 F.3d 1, 7 n.2 (1st Cir. 2005); Nat'l Metal
Finishing Co. v. BarclaysAmerican/Commercial, Inc., 899 F.2d 119,
123

(1st

Cir.

1990).

Perrier-Bilbo's

motion,

rather

than

attempting to prove a manifest error of law or present newly
discovered evidence, attempts to assert -- for the first time and
after summary judgment issued against her -- a procedural due
process claim arising from Director Haydon's conduct.

We have

found that reconsideration motions are "aimed at re consideration,
not initial consideration," Harley-Davidson Motor Co. v. Bank of
New England-Old Colony, N.A., 897 F.2d 611, 616 (1st Cir. 1990)
(emphasis in original) (citing White v. N.H. Dep't of Emp't Sec.,
455 U.S. 445, 451 (1982)), and thus, theories and arguments
presented for the first time in those motions are not properly
before

the

district

court,

see

Feliciano-Hernández

v.

Pereira-Castillo, 663 F.3d 527, 537 (1st Cir. 2011) ("The court
was . . . acting within its discretion in refusing . . . to
consider

new

arguments

that

[the

plaintiff]

could

have

made

earlier.

A motion to reconsider should not 'raise arguments which

-45-

APP. 045

Case: 18-2085

could,

Document: 00117573783

and

should,

have

Page: 46

been

Date Filed: 04/03/2020

made

before

Entry ID: 6329824

judgment

issued.'"

(quoting ACA Fin. Guar. Corp. v. Advest, Inc., 512 F.3d 46, 55
(1st Cir. 2008))); Tell v. Trs. of Dartmouth Coll., 145 F.3d 417,
419-20 (1st Cir. 1998)(finding that a new theory raised in a motion
for reconsideration had been waived because it "should have been
proffered to the district court" earlier); In re Neurontin Mktg.
& Sales Practices Litig. v. Pfizer, Inc., 810 F. Supp. 2d 366, 368
(D. Mass. 2011) (finding that a Rule 52(b) motion may not be used
"to assert new theories not raised at trial").
benefit

of

the

district

examination of this claim.

court's

We also lack the

fact-finding

and

initial

See Clauson v. Smith, 823 F.2d 660,

666 (1st Cir. 1987). Accordingly, we conclude that Perrier-Bilbo's
claim is not properly before us.17

See Iverson, 452 F.3d at 102–

03 (finding that "theories not squarely and timely raised in the
trial court" and failure to mention or develop a legal theory in
opposition

to

a

dispositive

motion

"defeat[s]

[the]

belated

attempt to advance the theory on appeal"); Tell, 145 F.3d at 420
n.3 (declining to consider argument that should have been presented
to the district court).

17

We also note that Perrier-Bilbo's procedural due process
argument on appeal as it pertains to the treatment of and
communications surrounding her application is set forth in a rather
conclusory manner. See United States v. Zannino, 895 F.2d 1, 17
(1st Cir. 1990).
-46-

APP. 046

Case: 18-2085

Document: 00117573783

Page: 47

III.
For

the

foregoing

Date Filed: 04/03/2020

Entry ID: 6329824

Conclusion
reasons,

we

affirm

the

district

court's grant of summary judgment and the denial of Perrier-Bilbo's
post-judgment motion under Fed. R. Civ. P. 52(b) and 59(e).
Affirmed.

"Concurring opinion follows"

-47-

APP. 047

Case: 18-2085

Document: 00117573783

Page: 48

Date Filed: 04/03/2020

BARRON, Circuit Judge, Concurring.

Entry ID: 6329824

I write separately

to underscore what I understand our opinion to hold.

I am moved

to do so by the Constitution's text, which, at the very least, is
a good place to start in trying to figure out what it means.
The portion of that text that I have in mind is the
clause that sets forth the presidential oath.

That clause does

not require those completing it to avow their faith in a higher
power.18

Consistent with the founding generation's acceptance of

diverse views about religion, that clause does not even require
the President-elect to "swear" an oath at all, as it expressly
states that, no questions asked, an "affirm[ation]" will do just
as well.

U.S. Const. art. II, § 1, cl. 8.19

18

The presidential oath reads: "Before he enter on the execution
of his office, he shall take the following Oath or Affirmation:-'I do solemnly swear (or affirm) that I will faithfully execute
the Office of President of the United States, and will to the best
of my Ability, preserve, protect and defend the Constitution of
the United States.'" U.S. Const. art. II, § 1, cl. 8; see also
U.S. Const. art. I, § 3, cl. 6 (requiring the Senate be on "Oath
or Affirmation" when sitting for impeachment); U.S. Const. art.
VI, cl. 3 (requiring state and federal legislators and officers to
"be bound by Oath or Affirmation, to support this Constitution");
U.S. Const. amend. IV (requiring warrants to be issued only "upon
probable cause, supported by Oath or affirmation").
19

The Framers in this way made an "affirmative accommodation of
religious belief" by allowing the President-elect to swear or
affirm, given that "[c]ertain minority religious groups, most
notably the Quakers, refused on Biblical grounds to take oaths,
but were willing to make affirmations." Arlin M. Adams & Charles
J. Emmerich, A Heritage of Religious Liberty, 137 U. Pa. L. Rev.
1559, 1630–31 & n.298 (1989). The religious objection to swearing
may be traced to the passage in the New Testament, Matthew 5:34-37,
-48-

APP. 048

Case: 18-2085

Document: 00117573783

The

federal

Page: 49

regulation

Date Filed: 04/03/2020

Entry ID: 6329824

that

what

prescribes

a

prospective citizen must say to become naturalized, by contrast,
eschews the more neutral "swear or affirm" approach that the
Constitution selects.

Instead, it sets forth a default script

that requires prospective citizens to manifest their loyalty to
this country by swearing, "on oath," the following expression of
religious faith:

"so help me God."

8 C.F.R. § 337.1(a).

See

Newdow v. Roberts, 603 F.3d 1002, 1016 (D.C. Cir. 2010) (Kavanaugh,
J., concurring) (discussing the "religious nature of words such as
'help me God'").20

that reads:
But I tell you, do not swear an oath at all: either
by heaven, for it is God’s throne; or by the earth,
for it is his footstool; or by Jerusalem, for it is
the city of the Great King. And do not swear by your
head, for you cannot make even one hair white or
black. All you need to say is simply "Yes" or
"No"; anything beyond this comes from the evil one.
20

Congress has specified by statute that:
A person who has applied for naturalization shall, in
order to be and before being admitted to citizenship,
take in a public ceremony . . . an oath (1) to support
the Constitution of the United States; (2) to renounce
and abjure absolutely and entirely all allegiance and
fidelity to any foreign prince, potentate, state, or
sovereignty of whom or which the applicant was before
a subject or citizen; (3) to support and defend the
Constitution and the laws of the United States against
all enemies, foreign and domestic; (4) to bear true
faith and allegiance to the same; and (5)(A) to bear
arms on behalf of the United States when required by
the law, or (B) to perform noncombatant service in
-49-

APP. 049

Case: 18-2085

Document: 00117573783

Page: 50

Date Filed: 04/03/2020

Entry ID: 6329824

To be sure, the federal agency that administers the
naturalization

process,

the

United

States

Citizenship

and

Immigration Services ("USCIS"), does permit prospective citizens
to request an accommodation from having to say those words.
C.F.R. § 337.1(b).

8

But, the nature of the relief that USCIS makes

available appears to render the citizenship oath, at least as
presently administered, less respectful of the religious liberties
of an immigrant who wishes to make herself a citizen than the
Constitution is of the religious liberties of a citizen who wishes
to make herself a President.
As it happens, though, the plaintiff's chief complaint
in

this

case

does

not

take

aim

at

accommodations that were offered to her.

the

inadequacy

of

the

Instead, she primarily

contends that, notwithstanding them, the government impermissibly
subjected her to a government-endorsed religious message merely by

the Armed Forces of the United States when required
by the law, or (C) to perform work of national
importance under civilian direction when required by
the law.
8 U.S.C. § 1448(a).
The regulation promulgated under that
statute, 8 C.F.R. § 337.1(a), sets forth specific language for the
oath, and the default mechanism for how one must solemnize it.
The language set forth in that regulation that is most relevant to
the issues before us -- "on oath," "so help me God" -- is notably
not in the statute itself:
I hereby declare, on oath, that . . . and that I take
this
obligation
freely,
without
any
mental
reservation or purpose of evasion; so help me God.
-50-

APP. 050

Case: 18-2085

Document: 00117573783

Page: 51

Date Filed: 04/03/2020

Entry ID: 6329824

permitting others to complete the citizenship oath in her presence
with the words, "so help me God."

Our opinion well explains why,

given past practice, that complaint lacks merit.

Indeed, the

Constitution permits the President-elect to choose to "swear" to
the

presidential

oath,

and

Presidents-to-be

exercised that option by saying, "so help me God."

have

regularly

See Am. Legion

v. Am. Humanist Ass'n, 139 S. Ct. 2067, 2074 (2019).
But, the plaintiff does make a fallback complaint, in
which she contends that, due to the inadequacy of the USCIS's
efforts to accommodate her concerns, the government pressured her
to conform to the religiously inflected default means of completing
the citizenship oath.

And that contention is more promising.

In keeping with the governing federal regulations, 8
C.F.R. § 337.1(b), the USCIS offered the plaintiff here the option
of either declining to participate in the public naturalization
ceremony and taking the oath privately while stating that she
"solemnly

affirm[s]"

what

it

says,

or

participating

in

that

ceremony while refraining from saying "so help me God" when the
officiant instructed the participants to do so.

Id.

But, I can

imagine that some prospective citizens might not be comfortable
asking the government to spare them from having to swear to God,
especially if to obtain that relief they must be willing to
demonstrate that they are entitled to it "by reason of religious

-51-

APP. 051

Case: 18-2085

Document: 00117573783

training

and

belief

for other reasons of

(or
good

Page: 52

Date Filed: 04/03/2020

Entry ID: 6329824

individual interpretation thereof), or
conscience."

Id.

And, even setting

that concern aside, it also is not clear to me that the privateceremony option is adequate, given that it appears to permit the
prospective citizen to be true to herself only if she skips one of
the most inspiring and moving civic ceremonies that our government
sponsors.

Nor is it clear to me that the remaining-silent option

is adequate either, given that it places the prospective citizen
in the uncomfortably conspicuous position of refusing to say "on
oath" and "so help me God" while all around her are instructed by
the officiant (often a federal judge) to do so.
Our decision in Freedom From Religion Foundation v.
Hanover School District, 626 F.3d 1 (1st Cir. 2010), moreover,
does not appear to show that the latter accommodation could be
curative, even if the former could not.

There, we held that "the

recitation of the Pledge in public school classrooms" in New
Hampshire did not unconstitutionally coerce "children to recite a
purely

religious

ideology,"

notwithstanding

that

the

Pledge

referred to this nation as one that is "under God," because the
school district permitted students to remain "silent during the
saying of the Pledge [of Allegiance]."
quotation omitted).

Id. at 10-14 (internal

But, there is a difference between swearing

to God to become a citizen of the United States and making a pledge

-52-

APP. 052

Case: 18-2085

Document: 00117573783

Page: 53

Date Filed: 04/03/2020

that refers to God in describing the United States.

Entry ID: 6329824

There is a

difference, too, between participating in the ceremony through
which one engages in the legally consequential act that transforms
oneself into a United States citizen and attending an early morning
homeroom in which a routine recitation is made.

Thus, the case

for finding that an immigrant's public silence in the former
setting would be considered conspicuous -- and reflective of her
disbelief in God -- appears to me to be much stronger than the
case for finding the same to be true when a high schooler chooses
to stay mum while the PA system broadcasts the Pledge.
Citizenship

entails,

as

a

necessary

willingness to stand up for one's rights.

See id.

burden,

the

It does not entail the

obligation to overcome the pressure that the government exerts -even if only indirectly, and even if only through inattention -by leveraging the predictable human impulse to seek out the comfort
of fitting in or, at least, to avoid the hassles that so often
follow

from

choosing

to

stand

out.

Thus,

while

the

burden

presently imposed on the individual immigrant who objects to saying
"so help me God" to complete the citizenship oath may seem minimal,
it should not be ignored, at least when the government could so
easily avoid imposing it.
The government could require, for example, that the
officiant

instruct

participants

in

the

public

naturalization

-53-

APP. 053

Case: 18-2085

Document: 00117573783

Page: 54

Date Filed: 04/03/2020

Entry ID: 6329824

ceremony to make known their loyalty to this country either by
making an affirmation or by making their commitment "on oath" and
by saying, "so help me God."

By doing so, the government would

take the modest step of ensuring that officiants would no longer
instruct participants in such ceremonies to make only the latter
statements.

And, in consequence, prospective citizens who are

uncomfortable making them would no longer need to seek special
permission to remain silent as the price of their admission.

In

fact, that revised approach would not even mark a break with
tradition, as it would revert back to the practice reflected in
the ready templates set forth not only in Article II, Section 1 of
the Constitution but also in the 1790 statute in which Congress
first prescribed how those seeking naturalization should make
known their allegiance to the United States.

See Naturalization

Act of 1790, ch. 3, § 1, 1 Stat. 103, 103 (expressly referring to
"the

oath

or

affirmation

prescribed

by

law,

to

support

the

constitution of the United States, which oath or affirmation such
court shall administer"); see also Naturalization Act of 1795,
§ 2, 1 Stat. 414, 415 (stating that the prospective citizen "may
be admitted to become a citizen, on his declaring on oath or
affirmation").21

21

Under the early statutes, courts administering the oath
retained some flexibility as to its content. See Naturalization
Oath of Allegiance to the United States of America: History, U.S.
-54-

APP. 054

Case: 18-2085

Document: 00117573783

Page: 55

Date Filed: 04/03/2020

Entry ID: 6329824

The plaintiff here, however, in claiming that she was
pressured to complete the oath by saying, "so help me God," hardly
addresses the adequacy of the option to remain silent that she was
given.

She

focuses

her

challenge

in

that

regard

almost

exclusively on what she contends is the inadequacy of the private
ceremony option.

We thus must assume the adequacy of the option

that was made available to her, as she does not challenge it in
any developed way.

For that reason, I join our opinion in full,

as it does not preclude our finding merit in a different attempt
by an immigrant than we confront here to enforce the right to
religious liberty that has, for so long, led so many to seek
citizenship in this country.

Citizenship
&
Immigr.
Servs.,
https://www.uscis.gov/uscitizenship/naturalization-test/naturalization-oath-allegianceunited-states-america (last updated June 25, 2014).
The first
official standard text for the Oath of Allegiance was promulgated
by regulation in 1929 and included the language, "so help me God."
Id.
-55-

APP. 055

·'

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 1 of 23

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

)

OLGA PAULE PERRIER-BILBO,

)

)
)

Plaintiff,

)

v.

)
)

UNITED STATES and FRANCIS CISSNA,
Director, U.S. Citizenship and
Immigration Services,
Defendants.

CIVIL ACTION
NO. 1:17-12148-WGY

)

)
)
)
)

~~~~~~~~~~~~~~~~~~~)

YOUNG, D.J.

September 28, 2018
MEMORANDUM AND ORDER

I .

INTRODUCTION

In 2000, Olga Paule Perrier-Bilbo ("Perrier-Bilbo 11 )
emigrated from France and settled in Scituate, Massachusetts.
In due course, she applied to become a United States citizen.
Having completed all the necessary requirements, she is fully
eligible for United States citizenship.
She balks, however, at the words "so help me God 11 which
conclude the oath of allegiance administered at United States
naturalization ceremonies.

United States Citizenship and

Immigration Services ("USCIS") offered her a private induction
which would omit the words she finds offensive.

Not

APP. 056

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 2 of 23

surprisingly, she wishes to participate in the public ceremony
with other new citizens and their families and friends.

users

welcomed her at such a ceremony, assuring her she need not
herself say those four words and her oath of allegiance and
United States citizenship would nonetheless be fully valid.
Perrier-Bilbo will have none of it.

Evidently, she seeks a

ceremony where neither the official administering the oath nor
the new citizens will conclude by uttering the phrase "so help
me God."
Perrier-Bilbo alleges that the phrase's inclusion in the
oath violates the Establishment and Free Exercise Clauses of the
First Amendment, Compl.

~~

153-70, ECF No. 1; the Religious

Freedom Restoration Act ("RFRA"), 42 U.S.C. §§ 2000bb-2000bb-4,
Compl.

~~

171-82; and her rights to equal protection and

procedural due process under the Fifth Amendment, Compl.
97.

~~

183-

Perrier-Bilbo seeks a declaration that these provisions

have been violated and an injunction permanently enjoining the
government "from placing 'so help me God' in future
naturalization oath ceremonies," as well as reimbursement of the
cost of her second naturalization application.

Id. at 41.

The United States and Francis Cissna, the Director of USCIS
(collectively, the "Defendants"), move to dismiss the complaint
for failure to state a claim and lack of standing.
Dismiss & Mero. Supp.

Defs.' Mot.

("Defs.' Mot."), ECF No. 10.

[2]

APP. 057

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 3 of 23

A.

Procedural History

On November 2, 2017, Perrier-Bilbo filed a complaint
against the Defendants in this Court.1

See ECF No. 1.

The

complaint includes claims for violations of the Establishment
Clause and the Free Exercise Clau·se of the First Amendment; the
Religious Freedom Restoration Act, 42 U.S.C. §§ 2000bb-2000bb-4;
and the Fifth Amendment.

Id.

~~

153-97.

The Defendants moved to dismiss the complaint on February
22, 2018.

Defs.' Mot., ECF No. 10.

On May 8, 2018, this Court

heard oral argument on the motion, during which it advised the
parties that it would treat the motion as cross-motions for
summary judgment and took the motion under advisement.

See

Electronic Clerk's Notes, ECF No. 20.
B.

Undisputed Facts

Perrier-Bilbo is a citizen of France who moved to Scituate,
Massachusetts in 2000.

Compl.

~

56.

In 2002, she became a

permanent resident of the United States, and in 2004, she was
issued a green card.

Id.

~

57.

In 2008, she applied for

naturalization, fulfilling the necessary paperwork and interview
requirements, and her application was approved.

Id.

~~

58-66.

1 Perrier-Bilbo also initially filed this action against the
"Congress of the United States of America," but later
voluntarily dismissed the complaint as against that party.
See
Electronic Clerk's Notes, ECF No. 20.
[ 3]

APP. 058

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 4 of 23

She then received a form indicating that she was to take the
oath of citizenship on March 4, 2009.

Id. ~ 67.

In January 2009, Perrier-Bilbo wrote to

users

requesting

that she be permitted to take the oath without the phrase "so
help me God."

Id. ~ 69.

USCIS informed her that she could

either participate in the oath ceremony and omit the "so help me
God" language, or schedule a private oath ceremony in which the
government would omit the phrase in administering the oath.
~

70.

users

Id.

A few months later, Perrier-Bilbo received a letter from
stating that she had fifteen days to notify

users

of her

decision, and that if she declined to respond or choose one of

users

the two options,

would reopen her application and deny it

for lack of prosecution.

Id.

~

73.

Perrier-Bilbo retained counsel, who informed

users

that

neither of the two options provided were satisfactory to
Perrier-Bilbo.

Id.

unsuccessful, and

~

74.

users

Further attempts to negotiate were

eventually denied Perrier-Bilbo's

application as abandoned, informing her that she could file a
new application in the future.

Id.

~

80.

After years of trying

and failing to obtain a waiver of the application fee,

Perrier-

Bilbo filed a second application in December 2014, which was
granted.

Id.

~~

83-84, 103, 108.

She was again sent a form

indicating that she was scheduled for a naturalization oath
ceremony to be held on April 6, 2017.

Id.

~

122.

[ 4]

APP. 059

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 5 of 23

That day, Perrier-Bilbo arrived at the United States
District Court in Boston, where the ceremony was to take place,
and attempted to explain her objection to an individual at the
Id. ~~ 123-25.

courthouse.

That person told her that she

didn't "have to say anything."

Id. '

125.

Perrier-Bilbo

further objected, and was eventually told to forgo the ceremony
that day and contact USCIS.

Id.

After speaking to someone at

~

126.

users,

Perrier-Bilbo was sent

a letter in August 2017, notifying her that she was scheduled to
participate in a naturalization oath ceremony taking place on
September 14, 2017.

Id.

~

132.

The letter stated that due to

her religious objections, she may take a modified oath in which
she may decline to recite the portion of the oath to which she
objects.

Id. '

133.

"[H]owever," the letter continued, "please

note that the full oath of allegiance will be administered on
this day."

Id.

The letter informed her that the court could

instead schedule a "private naturalization ceremony to take the
modified oath of allegiance as you have requested."
Perrier-Bilbo did not attend the ceremony.

II.

Id.

~

Id.

~

134.

136.

ANALYSIS

The Defendants move to dismiss Perrier-Bilbo's complaint
under Federal Rules of Civil Procedure 12(b) (1) and 12(b) (6).
Defs.' Mot. 1.

Because Rule 12(b) (1) implicates this Court's

jurisdiction, the Court addresses it first.
[ 5]

APP. 060

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 6 of 23

A.

Standing

A party filing a complaint in federal court must
demonstrate that she possesses Article III standing to raise her
claims and that the court has subject matter jurisdiction over
those claims.

See Lujan v. Defenders of Wildlife, 504 U.S. 555,

560-61 (1992).

"In essence the question of standing is whether

the litigant is entitled to have the court decide the merits of
the dispute or of particular issues."
490, 498

(1975).

Warth v. Seldin, 422 U.S.

As the Supreme Court has explained:

[T]he irreducible constitutional minimum of
standing contains three elements.
First, the
plaintiff must have suffered an "injury in fact" -- an
invasion of a legally protected interest which is (a)
concrete and particularized and (b) "actual or
imminent, not 'conjectural' or 'hypothetical.'"
Second, there must be a causal connection between the
injury and the conduct complained of -- the injury has
to be "fairly . . . trace[able] to the challenged
action of the defendant, and not . . . th[e] result
[of] the independent action of some third party not
before the court." Third, it must be "likely," as
opposed to merely "speculative," that the injury will
be "redressed by a favorable decision."
Lujan, 504 U.S. at 560-61 (internal citations omitted)

(first

quoting Whitmore v. Arkansas, 495 U.S. 149, 155 (1990), then
quoting Simon v. Eastern Ky. Welfare Rights Org., 426 U.S. 26,
41-42 (1976), then quoting Simon, 426 U.S. at 38, 43).
First, the plaintiff must prove an "injury in fact."
at 560.

Id.

When the question is whether a government action was or

was not legal, and the plaintiff is herself the object of the

[6]

APP. 061

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 7 of 23

action, "there is ordinarily little question that the action or
inaction has caused [her] injury."

Id. at 561-62.

Perrier-

Bilbo correctly argues that she has a "concrete and
particularized" interest in becoming a naturalized citizen of
the United States as provided by federal law.
§§

See 8 U.S.C.

1421-59; Pl.'s Opp'n Defs.' Mot. Dismiss ("Pl.'s Opp'n") 2,

ECF No. 18.

Here, Perrier-Bilbo also sufficiently alleges an

"actual" invasion of her protected interest.

Because of her

unwillingness to speak the phrase "so help me God" as part of
her oath of citizenship, she was afforded two different options:
(i) to participate in the ceremony and omit the words; or (ii)
to participate in a private ceremony, at which the words would
not be included in the oath.

Compl.

~

70.

Perrier-Bilbo

alleges that neither of these options satisfies her
constitutional right to participate in a public ceremony without
having to take part in a religion-imbued oath.

Pl.'s Opp'n 3.

Because of her objection, she claims, the ceremony was
rescheduled twice and Perrier-Bilbo was forced to apply for
naturalization (and pay the attendant fees)

twice.

Thus,

Perrier-Bilbo has sufficiently alleged injury in fact.
Second, the Constitution requires a "causal connection"
between the action complained of and the injury that the
plaintiff has suffered.

Lujan, 504 U.S. at 560.

The Defendants

argue that there is no causation because the alleged harm is
[ 7]

APP. 062

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 8 of 23

either attributable to Perrier-Bilbo's own actions, or to those
of the court administrating the naturalization ceremony.

Defs.'

Mot. 1, 8 ("[I]t was a third party -- this district court
that ultimately decided how it would accommodate [PerrierBilbo' s] request.").

This Court disagrees.

Perrier-Bilbo

challenges the federal regulation providing for the inclusion of
the phrase to which she objects in the oath of citizenship.
has properly named as a defendant

users,

She

which is the federal

government agency responsible for, among other duties,
"establish[ing] national immigration services policies and
priorities."
§

Homeland Security Act of 2002,

271 (a) (3) (D).

6 U.S.C.

Her alleged injury is thus fairly traceable to

the Defendants' actions.
Third and finally,
is "'likely'

Perrier-Bilbo must demonstrate that it

. . that the injury will be 'redressed by a

favorable decision.'"
426 U.S. at 38).

Lujan, 504 U.S. at 561 (quoting Simon,

This requirement is met when there is a

"likelihood that the requested relief will redress the alleged
injury."

Steel Co. v. Citizens for a Better Env't, 523 U.S. 83,

103 (1998).

Here, Perrier-Bilbo seeks a declaration that the

inclusion of the phrase "so help me God" in the naturalization
oath violates the Constitution; an injunction permanently
enjoining the government "from placing 'so help me God' in
future naturalization oath ceremonies"; and reimbursement for
[ 8]

APP. 063

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 9 of 23

the cost of her second naturalization application.

Compl. 41.

A decision by this Court declaring the inclusion of the phrase
"so help me God" in the official oath of citizenship to be
unconstitutional would likely redress Perrier-Bilbo's alleged
injury.

Perrier-Bilbo consequently has the requisite standing

to bring her claims.
B.

Perrier-Bi1bo's C1aims

A district court may, after giving the parties reasonable
notice and opportunity to present relevant materials, treat a
motion to dismiss as a motion for summary judgment.

See Fed. R.

Civ. P. 12(d); Foley v. Wells Fargo Bank, N.A., 772 F.3d 63, 73
(1st Cir. 2014).

Entry of summary judgment is appropriate where

"there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law."
Civ. P. 56(a).

Fed. R.

"(I]f the evidence is such that a reasonable

jury could return a verdict for the nonmoving party," however,
then summary judgment will not be granted.
Lobby, Inc., 477 U.S. 242, 248 (1986).

Anderson v. Liberty

In resolving a motion

for summary judgment, the Court is not to weigh the evidence,
but "must draw all reasonable inferences in favor of the
nonmoving party."

Reeves v. Sanderson Plumbing Prods., Inc.,

530 U.S. 133, 150 (2000).

Here, where there are no material

facts in dispute, the issue before the Court is one of law.

[ 9]

APP. 064

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 10 of 23

Under federal law, all persons wishing to become
naturalized citizens must take either an oath or an affirmation
of allegiance to the United States.
§

337.1.

8 U.S.C. § 1448; 8 C.F.R.

As provided by regulation, the oath reads:

I hereby declare, on oath, that I absolutely and
entirely renounce and abjure all allegiance and
fidelity to any foreign prince, potentate, state, or
sovereignty, of whom or which I have heretofore been a
subject or citizen; that I will support and defend the
Constitution and laws of the United States of America
against all enemies, foreign and domestic; that I will
bear true faith and allegiance to the same; that I
will bear arms on behalf of the United States when
required by the law; that I will perform noncombatant
service in the Armed Forces of the United States when
required by the law; that I will perform work of
national importance under civilian direction when
required by the law; and that I take this obligation
freely, without any mental reservation or purpose of
evasion; so help me God.
8 C.F.R. § 337.l(a).

Federal regulation also provides:

When a petitioner or applicant for
naturalization, by reason of religious training and
belief (or individual interpretation thereof), or for
other reasons of good conscience, cannot take the oath
prescribed in paragraph (a) of this section with the
words "on oath" and "so help me God" included, the
words "and solemnly affirm" shall be substituted for
the words "on oath," the words "so help me God" shall
be deleted, and the oath shall be taken in such
modified form.
8 C.F.R. § 337.l(b).
1.

The Establishment Clause

Under the First Amendment of the United States
Constitution, Congress may not enact laws "respecting an
establishment of religion."

U.S. Const. amend. I.

This

[10]

APP. 065

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 11 of 23

amendment "guarantees that government may not coerce anyone to
support or participate in religion or its exercise, or otherwise
act in a way which 'establishes a [state] religion or religious
faith, or tends to do so.'"
(1992)

Lee v. Weisman, 505 U.S. 577, 587

(quoting Lynch v. Donnelly, 465 U.S. 668, 678

(1984)).

Though the Supreme Court has articulated various tests to
determine whether particular practices fall afoul of this
clause, it has also explained that "it is not necessary to
define the precise boundary of the Establishment Clause where
history shows that the specific practice is permitted."

Town of

Greece v. Galloway, 134 S. Ct. 1811, 1819 (2014).
In Marsh v. Chambers, 463 U.S. 783 (1983), the Supreme
Court heavily relied on history and tradition in upholding the
constitutionality of a state legislature's practice of beginning
its sessions with prayer by a state-paid chaplain.

It explained

that because the practice of legislative prayer is so "deeply
embedded in the history and tradition of this country," it is
permissible "where .

. . there is no indication that the prayer

opportunity has been exploited to proselytize or advance any
one, or to disparage any other, faith or belief."

Id. at 786,

794-95.
The Supreme Court again relied on this principle in
affirming the constitutionality of the prayer practice at a
small town's monthly board meetings.

In Town of Greece v.

[11)

APP. 066

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 12 of 23

Galloway, the Court rejected the plaintiffs' contention that the
sectarian nature of the prayers (for instance, referring to the
"Savior Jesus Christ") rendered them constitutionally
objectionable.

134 S. Ct. at 1820-22.

Justice Kennedy observed

that "[a]n insistence on nonsectarian or ecumenical prayer .
is not consistent with the tradition of legislative prayer
outlined in the [Supreme] Court's cases."

Id. at 1820.

The

Supreme Court also disagreed with the contention that "the
setting and conduct of the town board meetings create social
pressures that force nonadherents to remain in the room or even
feign participation in order to avoid off ending the
representatives who sponsor the prayer and will vote on matters
citizens bring before the board."

Id.

After noting the lack of

evidence that the town leaders treated citizens declining to
join in the prayer any differently from those who did, Justice
Kennedy explained that "in the general course legislative bodies
do not engage in impermissible coercion merely by exposing
constituents to prayer they would rather not hear and in which
they need not participate."

Id. at 1827.

Though this guidance from the Supreme Court derives from
the context of legislative prayer, rather than government oaths,
it nevertheless dooms Perrier-Bilbo's claim.

First, the use of

the phrase "so help me God" or similar invocations in public
oaths and statements is, along with legislative prayer, a well-

[12]

APP. 067

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 13 of 23

established tradition that can be traced back to the nation's
founding.

See Elk Grove Unified Sch. Dist. v. Newdow, 542 U.S.

1, 26-29 (2004)

(Rehnquist, C.J., concurring in judgment)

(itemizing examples of the invocation of God by various
Presidents beginning with George Washington in their inaugural
oaths and other proclamations and addresses); Newdow v. Roberts,
603 F.3d 1002, 1018-19 (D.C. Cir. 2010)
concurring in judgment)

(Kavanaugh, J.,

(observing that, "like the practice of

legislative prayer, use of 'so help me God' in oaths for
government officials is deeply rooted in the Nation's history
and tradition" and cataloging numerous state and federal oaths
that presently include the phrase); Judiciary Act of 1789, ch.
20, § 8, 1 Stat. 76 (requiring federal judges to take an oath
containing the phrase "so help me God").

Like legislative

prayer, then, it "has become part of our heritage and tradition,
part of our expressive idiom, similar to the Pledge of
Allegiance, inaugural prayer, or the recitation of 'God save the
United States and this honorable Court' at the opening of [the
Supreme Court's] sessions."

Town of Greece, 134 S. Ct. at 1825.

Second, the religious invocations held to be constitutional
in Town of Greece and Marsh were more sectarian than is the
phrase "so help me God."

Even the Town of Greece plaintiffs

based their argument on the theory that "legislative prayer may
be addressed only to a generic God."

Id. at 1822.

Similarly,

[13]

APP. 068

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 14 of 23

they argued that "prayer conducted in the intimate setting of a
town board meeting differs in fundamental ways from the
invocations delivered in Congress and state legislatures, where
the public remains segregated from legislative activity and may
not address the body except by occasional invitation."
1824-25.

Id. at

The naturalization ceremony at issue here is much more

comparable to these circumstances that even the Town of Greece
plaintiffs conceded were constitutional: no sectarian language
is used, and would-be citizens such as Perrier-Bilbo have little
to no opportunity for interaction with, or prejudice from, those
leading the ceremony.

Further, both options offered to Perrier-

Bilbo -- omitting the phrase when she says the oath or taking
her own, private naturalization oath without the phrase -- are
akin to the options available to the town citizens in Town of
Greece and considered permissible, non-coercive alternatives by
the Supreme Court:
Should nonbelievers choose to exit the room during
a prayer they find distasteful, their absence will not
stand out as disrespectful or even noteworthy. And
should they remain, their quiet acquiescence will not,
in light of our traditions, be interpreted as an
agreement with the words or ideas expressed.
Neither
choice represents an unconstitutional imposition as to
mature adults . . . .
See id. at 1827.
Finally, this Court ought not overlook the overwhelmingly
consistent precedent and dicta addressing similar challenges.

[14]

APP. 069

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 15 of 23

Notably, the First Circuit has upheld the constitutionality of a
state statute requiring that public schools provide time for
voluntary recitation of the Pledge of Allegiance, in which the
phrase "under God" is used.

Freedom From Religion Found. v.

Hanover Sch. Dist., 626 F.3d 1, 15 (1st Cir. 2010).

Other

courts and judges to consider the issue have consistently
observed, assumed, or held that the use of "so help me God,"
"under God," or "God" in government oaths and other statesanctioned practices is permissible.

See School Dist. of

Abington Twp. v. Schempp, 374 U.S. 203, 213 (1963)

(observing

that the nation's historical ties to religion are "evidenced
today in our public life through the continuance in our oaths of
off ice .

of the final supplication,

'So help me God'");

Zorach v. Clauson, 343 U.S. 306, 312-13 (1952)

(noting that

"common sense" dictates that practices such as the use of "'so
help me God' in our courtroom oaths" are permissible); Myers v.
Loudoun Cty. Pub. Schs., 418 F.3d 395, 408

(4th Cir. 2005)

(upholding constitutionality of statute requiring daily,
voluntary recitation of the Pledge of Allegiance in public
schools).

In at least two instances where the majority opinion

declined to reach the merits because of the lack of standing,
concurring judges and Justices have concluded that such
practices are permissible.

See Elk Grove, 542 U.S. at 18 (ops.

concurring in judgment of Rehnquist, C.J., O'Connor, J., and
[15]

APP. 070

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 16 of 23

Thomas, J.)

(determining policy requiring public school teachers

to lead voluntary daily recitation of ~ledge of Allegiance to be
constitutional); Newdow, 603 F.3d at 1022 (Kavanaugh, J.,
concurring in judgment)

(concluding that inclusion of "so help

me God" in the Presidential oath does not violate the
Establishment Clause) .

Indeed, the Fourth Circuit has made the

"striking" observation that "given the vast number of
Establishment Clause cases to come before the [Supreme] Court,
not one Justice has ever suggested that the Pledge is
unconstitutional."

Myers, 418 F.3d at 406.

To be sure, "[t]he fact that religious words are common to
many faiths -- or are used repeatedly
religious meaning."

does not diminish their

Newdow, 603 F.3d at 1016 (Kavanaugh, J.,

concurring in judgment).

"So help me God" has some religious

content, as "[a] belief in God is a religious belief."
From Religion Found.,

626 F.3d at 7.

Freedom

As Supreme Court precedent

has established, however, that the phrase "has some religious
content . . . is not determinative of [the regulation's]
constitutionality."

Id.

Like the ceremonial prayer in Town of

Greece, the inclusion of "so help me God" in the oath of
citizenship "is but a recognition that, since this Nation was
founded and until the present day, many Americans deem that
their own existence must be understood by precepts far beyond
the authority of government to alter or define and that willing
[16]

APP. 071

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 17 of 23

participation in civic affairs can be consistent with a brief
acknowledgment of their belief in a higher power, always with
due respect for those who adhere to other beliefs."
Greece, 134 S. Ct. at 1827-28.

Town of

The regulation providing for the

phrase's inclusion in the naturalization oath does not violate
the Establishment Clause.
2.

The Free Exercise Clause

The Free Exercise Clause provides that the government may
not "(l) compel affirmation of religious beliefs;

(2) punish the

expression of religious doctrines it believes to be false;

(3)

impose special disabilities on the basis of religious views or
religious status; or (4) lend its power to one side or the other
in controversies over religious authorities or dogma."
v. Hurley, 514 F.3d 87, 103 (1st Cir. 2008).

Parker

"The Free Exercise

Clause affords an individual protection from certain forms of
governmental compulsion; it does not afford an individual a
right to dictate the conduct of the Government's internal
procedures."

Bowen v. Roy, 476 U.S. 693, 700

(1986).

Accordingly, the government does not violate the Free Exercise
Clause unless its action has a "coercive effect" with respect to
the plaintiff's religious practice.

Parker, 514 F.3d at 103

(citing Schempp, 374 U.S. at 223).
In Freedom From Religion Foundation, the First Circuit
reasoned that schoolchildren's "mere exposure to the religious
[17]

APP. 072

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 18 of 23

content of the Pledge [of Allegiance]" lacked a coercive effect
and thus did not violate the Free Exercise Clause.
14.

626 F.3d at

So too here, Perrier-Bilbo's "mere exposure" to the phrase

"so help me God" in the oath of citizenship does not compel her
affirmation of a religious belief.

She is not required to

"agree with or affirm [religious beliefs], or .
in discussions about them."

. participate

Parker, 514 F.3d at 106.

In fact,

USCIS representatives repeatedly informed Perrier-Bilbo that she
did not need to recite the phrase "so help me God" and that she
could avoid even "mere exposure" to that phrase by taking her
oath at a private ceremony.

See, e.g., Compl.

~~

70, 123-25.

Even if USCIS had not offered Perrier-Bilbo the option of taking
the oath at a private ceremony, the government policy would pass
constitutional muster.

The choice to remain silent, although a

"quiet acquiescence[,] will not, in light of our traditions, be
interpreted as an agreement with words or ideas expressed"
because citizenship oath takers are "mature adults," who
"'presumably' are 'not readily susceptible to religious
indoctrination or peer pressure.'"

Town of Greece, 134 S. Ct.

at 1827 (quoting Marsh, 463 U.S. at 792).

As such, Perrier-

Bilbo' s Free Exercise Clause claim fails.
3.

The Religious Freedom Restoration Act

The Religious Freedom Restoration Act ("RFRA") provides
that the government "shall not substantially burden a person's
[18]

APP. 073

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 19 of 23

exercise of religion" unless it is "in furtherance of a
compelling governmental interest" and "is the least restrictive
means" of doing so.

42 U.S.C. § 2000bb-l.

A substantial burden

exists "where [the government] denies [an important] benefit
because of conduct mandated by religious belief, thereby putting
substantial pressure on an adherent to modify his behavior and
to violate his beliefs."

Thomas v. Review. Bd. of Ind. Emp't

Sec. Div., 450 U.S. 707, 717-18

(1981).

At a minimum, Perrier-

Bilbo must show that she suffered more than an inconvenience as
a consequence of the government's policy.

See, e.g., New Doe

Child #1 v. Congress of United States, 891 F.3d 578, 590 (6th
Cir. 2018); Vision Church v. Village of Long Grove, 468 F.3d
975, 999 (7th Cir. 2006); Worldwide Church of God v.
Philadelphia Church of God, Inc., 227 F.3d 1110, 1121 (9th Cir.
2000).
Perrier-Bilbo believes that she would be "violating her
religious tenets by taking part in a ceremony where the official
oath being subscribed to ends 'so help me God.'"
13.

Pl.'s Opp'n

While she recognizes that she can take the oath in a

separate ceremony in which the phrase will be removed from the
oath, she considers that option akin to segregation and "grossly
offensive."

Id. at 14.

She suggests that in order to follow

her beliefs, she is impermissibly forced to sacrifice the
benefit of "join[ing] as an equal with her co-participants and
[ 19]

APP. 074

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 20 of 23

take the oath of naturalization that is codified in 8 C.F.R.
337.1."

[§]

Id. at 15.

Perrier-Bilbo is undoubtedly sincere in her beliefs and in
the offense she takes to the inclusion of "so help me God" in
the oath of citizenship.
coercion."

"Offense, however, does not equate to

Town of Greece, 134 S. Ct. at 1826; see also Parker,

514 F.3d at 106 (explaining that public schools need not "shield
individual students from ideas which potentially are religiously
offensive").

In light of the two options afforded to Perrier-

Bilbo, this Court cannot hold that the government conduct here
imposes "substantial pressure" on her to violate her beliefs.
While Perrier-Bilbo may subjectively consider it burdensome
either to omit the phrase or to request a private ceremony, not
every minor imposition rises to the level of a substantial
burden, the existence of which is a purely legal issue for the
Court.

See Gary S. v. Manchester Sch. Dist., 374 F.3d 15, 21-22

(1st Cir. 2004)

(concluding that, notwithstanding the

plaintiffs' sincere belief that a government program burdened
their "religion or free exercise thereof," they had not
demonstrated a legally cognizable burden for RFRA purposes); see
also Zorach, 343 U.S. at 312, 314 ("The First Amendment
does not say that in every and all respects there shall be a
separation of Church and State . . . . The problem, like many
problems in constitutional law, is one of degree."); Eternal

(20]

APP. 075

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 21 of 23

Word Television Network, Inc. v. Secretary of U.S. Dep't of
Health & Human Servs., 818 F.3d 1122, 1145 (11th Cir. 2016)
("The plain language of RFRA simply does not support reducing
the role of federal courts to 'rubber stamps' that automatically
recognize a substantial burden whenever a religious adherent
asserts there is one.").

As neither remaining silent during the

phrase "so help me God" nor attending a private ceremony would
do more than merely inconvenience Perrier-Bilbo, she has not
shown that the government's policy substantially burdens her in
violation of RFRA.
4.

The Equal Protection Clause

The equal protection component of the Fifth Amendment's Due
Process Clause "guarantees that those who are similarly situated
will be treated alike."

Freedom From Religion Found., 626 F.3d

at 14 (quoting In re Subpoena to Witzel, 531 F.3d 113, 118 (1st
Cir. 2008)).

Perrier-Bilbo's equal protection claim fails

because the regulation providing the text of the oath of
citizenship "do[es] not require different treatment of any class
of people because of their religious beliefs" or "give
preferential treatment to any particular religion."
v. Galvin, 412 F.3d 271, 283 (1st Cir. 2005).

Wirzburger

Rather, the

regulation's explicit provision for any individual who does not
wish to speak the words "so help me God" while taking the oath
demonstrates that it "applies equally to those who believe in
[21]

APP. 076

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 22 of 23

God, those who do not, and those who do not have a belief either
way, giving adherents of all persuasions the right to
participate or not participate in reciting the pledge, for any
or no reason."

Freedom From Religion Found.,

626 F.3d at 14

(quoting Freedom From Religion Found. v. Hanover Sch. Dist., 665
F. Supp. 2d 58, 72 (D.N.H. 2009)).
5.

The Due Process Clause

Nor does the regulation violate Perrier-Bilbo's procedural
due process rights.

Perrier-Bilbo contends that "the government

is requiring her, in essence, to commit perjury in order to
become a citizen" because she cannot declare that she will
support and defend the Constitution "while simultaneously being
required to ignore a constitutional violation."
20.

Pl.'s Opp'n 19-

Because the oath's inclusion of the phrase "so help me God"

is not unconstitutional, however, Perrier-Bilbo is not in fact
being "required to ignore a constitutional violation."
Further, as mentioned above, she is not "required" to take
the oath in a ceremony during which the words "so help me God"
are spoken.

She does not dispute that she may choose to take

the oath in a private setting, where the oath itself will be
modified to exclude that phrase.

As Perrier-Bilbo does not

otherwise "identify a protected liberty or property interest and
allege that the defendants, acting under color of .

. law,

deprived [her] of that interest without constitutionally

(22]

APP. 077

Case 1:17-cv-12148-WGY Document 21 Filed 09/28/18 Page 23 of 23

adequate process," Gonzalez-Droz v. Gonzalez-Colon, 660 F.3d 1,
13 {1st Cir. 2011)

(quoting Aponte-Torres v. University of P.R.,

445 F.3d 50, 56 (1st Cir. 2006)), her procedural due process
claim also fails.

III. CONCLUSION
For the aforementioned reasons, this Court GRANTS summary
judgment in favor of the Defendants and judgment will enter
denying Perrier-Bilbo's claims.
SO ORDERED.

DISTRICT JU

[23]

APP. 078

CONSTITUTIONAL PROVISIONS AND STATUTE AT ISSUE

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I:
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; …”
U.S. Const. amend. V:
No person shall … be deprived of life, liberty, or property, without due
process of law; …

STATUTORY PROVISION
The Religious Freedom Restoration Act of 1993 (RFRA)
42 U.S. Code § 2000bb
Congressional findings and declaration of purposes
(a) Findings
The Congress finds that—
the framers of the Constitution, recognizing free exercise of
religion as an unalienable right, secured its protection in the First
Amendment to the Constitution;
(2)
laws “neutral” toward religion may burden religious exercise as
surely as laws intended to interfere with religious exercise;
(3)
governments should not substantially burden religious exercise
without compelling justification;
(4)
in Employment Division v. Smith, 494 U.S. 872 (1990) the
Supreme Court virtually eliminated the requirement that the
government justify burdens on religious exercise imposed by laws
neutral toward religion; and
(5)
the compelling interest test as set forth in prior Federal court
rulings is a workable test for striking sensible balances between
religious liberty and competing prior governmental interests.
(1)

APP. 079

(b) Purposes
The purposes of this chapter are—
(1) to restore the compelling interest test as set forth in Sherbert v.
Verner, 374 U.S. 398 (1963) and Wisconsin v. Yoder, 406 U.S. 205
(1972) and to guarantee its application in all cases where free
exercise of religion is substantially burdened; and
(2) to provide a claim or defense to persons whose religious exercise is
substantially burdened by government.

42 U.S. Code § 2000bb-1
Free exercise of religion protected
(a) In general
Government shall not substantially burden a person’s exercise of
religion even if the burden results from a rule of general applicability,
except as provided in subsection (b) of this section.
(b) Exception
Government may substantially burden a person’s exercise of religion
only if it demonstrates that application of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering that compelling
governmental interest.
(c) Judicial relief
A person whose religious exercise has been burdened in violation of this
section may assert that violation as a claim or defense in a judicial
proceeding and obtain appropriate relief against a government.
Standing to assert a claim or defense under this section shall be
governed by the general rules of standing under article III of the
Constitution.

APP. 080

42 U.S. Code § 2000bb-2
Definitions
As used in this chapter—
(1) the term “government” includes a branch, department, agency,
instrumentality, and official (or other person acting under color of law)
of the United States, or of a covered entity;
(2) the term “covered entity” means the District of Columbia, the
Commonwealth of Puerto Rico, and each territory and possession of the
United States;
(3) the term “demonstrates” means meets the burdens of going forward with
the evidence and of persuasion; and
(4) the term “exercise of religion” means religious exercise, as defined in
section 2000cc–5 of this title.

42 U.S. Code § 2000cc-5
Definitions
In this chapter—
(1) Claimant
The term “claimant” means a person raising a claim or defense under
this chapter.
(2) Demonstrates
The term “demonstrates” means meets the burdens of going forward
with the evidence and of persuasion.
(3) Free Exercise Clause
The term “Free Exercise Clause” means that portion of the first
amendment to the Constitution that proscribes laws prohibiting the free
exercise of religion.
(4) Government
The term “government”—

APP. 081

(A) means—

a State, county, municipality, or other governmental entity
created under the authority of a State;
(ii) any branch, department, agency, instrumentality, or official of
an entity listed in clause (i); and
(iii) any other person acting under color of State law; and
(i)

(B) for

the purposes of sections 2000cc–2(b) and 2000cc–3 of this title,
includes the United States, a branch, department, agency,
instrumentality, or official of the United States, and any other person
acting under color of Federal law.

(5) Land use regulation
The term “land use regulation” means a zoning or landmarking law, or the
application of such a law, that limits or restricts a claimant’s use or
development of land (including a structure affixed to land), if the claimant
has an ownership, leasehold, easement, servitude, or other property
interest in the regulated land or a contract or option to acquire such an
interest.
(6) Program or activity
The term “program or activity” means all of the operations of any entity as
described in paragraph (1) or (2) of section 2000d–4a of this title.
(7) Religious exercise
(A) In

general
The term “religious exercise” includes any exercise of religion,
whether or not compelled by, or central to, a system of religious
belief.

(B) Rule

The use, building, or conversion of real property for the purpose of
religious exercise shall be considered to be religious exercise of the
person or entity that uses or intends to use the property for that
purpose.

APP. 082

42 U.S. Code § 2000bb-3
Applicability
(a) In general
This chapter applies to all Federal law, and the implementation of that
law, whether statutory or otherwise, and whether adopted before or
after November 16, 1993.
(b) Rule of construction
Federal statutory law adopted after November 16, 1993, is subject to
this chapter unless such law explicitly excludes such application by
reference to this chapter.
(c) Religious belief unaffected
Nothing in this chapter shall be construed to authorize any government
to burden any religious belief.

42 U.S. Code § 2000bb-4
Establishment clause unaffected
Nothing in this chapter shall be construed to affect, interpret, or in any
way address that portion of the First Amendment prohibiting laws
respecting the establishment of religion (referred to in this section as
the “Establishment Clause”). Granting government funding, benefits, or
exemptions, to the extent permissible under the Establishment Clause,
shall not constitute a violation of this chapter. As used in this section,
the term “granting”, used with respect to government funding, benefits,
or exemptions, does not include the denial of government funding,
benefits, or exemptions.

APP. 083

8 CFR § 337.1 Oath of allegiance.
(a) Form of oath.
Except as otherwise provided in the Act and after receiving notice from the
district director that such applicant is eligible for naturalization pursuant
to § 335.3 of this chapter, an applicant for naturalization shall, before being
admitted to citizenship, take in a public ceremony held within the United
States the following oath of allegiance, to a copy of which the applicant
shall affix his or her signature:
I hereby declare, on oath, that I absolutely and entirely renounce
and abjure all allegiance and fidelity to any foreign prince,
potentate, state, or sovereignty, of whom or which I have
heretofore been a subject or citizen; that I will support and defend
the Constitution and laws of the United States of America against
all enemies, foreign and domestic; that I will bear true faith and
allegiance to the same; that I will bear arms on behalf of
the United States when required by the law; that I will perform
noncombatant service in the Armed Forces of the United
States when required by the law; that I will perform work of
national importance under civilian direction when required by
the law; and that I take this obligation freely, without any mental
reservation or purpose of evasion; so help me God.
(b) Alteration of form of oath; affirmation in lieu of oath.
In those cases in which a petitioner or applicant for naturalization is
exempt from taking the oath prescribed in paragraph (a) of this section in
its entirety, the inapplicable clauses shall be deleted and the oath shall be
taken in such altered form. When a petitioner or applicant for
naturalization, by reason of religious training and belief (or individual
interpretation thereof), or for other reasons of good conscience, cannot take
the oath prescribed in paragraph (a) of this section with the words “on
oath” and “so help me God” included, the words “and solemnly affirm” shall
be substituted for the words “on oath,” the words “so help me God” shall be
deleted, and the oath shall be taken in such modified form. Any reference
to ‘oath of allegiance’ in this chapter is understood to mean equally
‘affirmation of allegiance’ as described in this paragraph.

APP. 084

(c) Obligations of oath.
A petitioner or applicant for naturalization shall, before being naturalized,
establish that it is his or her intention, in good faith, to assume and
discharge the obligations of the oath of allegiance, and that his or her
attitude toward the Constitution and laws of the United States renders
him or her capable of fulfilling the obligations of such oath.
(d) Renunciation of title or order of nobility.
A petitioner or applicant for naturalization who has borne any hereditary
title or has been of any of the orders of nobility in any foreign state shall,
in addition to taking the oath of allegiance prescribed in paragraph (a) of
this section, make under oath or affirmation in public an express
renunciation of such title or order of nobility, in the following form:
(1) I further renounce the title of (give title or titles) which I have
heretofore held; or
(2) I further renounce the order of nobility (give the order of nobility) to
which I have heretofore belonged.

APP. 085

IV

109TH CONGRESS
2D SESSION

S. CON. RES. 96

IN THE HOUSE OF REPRESENTATIVES
JULY 13, 2006
Referred to the Committee on the Judiciary

CONCURRENT RESOLUTION
To commemorate, celebrate, and reaffirm the national motto
of the United States on the 50th anniversary of its
formal adoption.
Whereas the phrase ‘‘In God We Trust’’ is the national motto
of the United States;
Whereas from the colonial beginnings of the United States,
citizens of the Nation have officially acknowledged their
dependence on God;

ccoleman on PROD1PC71 with BILLS

Whereas in 1694, the phrase ‘‘God Preserve Our Carolina
and the Lords Proprietors’’ was engraved on the Carolina
cent and the phrase ‘‘God Preserve Our New England’’
was inscribed on coins that were minted in New England
during that year;
Whereas while declaring the independence of the United
States from Great Britain, the Founding Fathers of the
Nation asserted: ‘‘We hold these Truths to be self-evident, that all Men are created equal, that they are en-

VerDate Aug 31 2005

05:46 Jul 14, 2006

Jkt 049200

PO 00000

Frm 00001

Fmt 6652

Sfmt 6300

E:\BILLS\SC96.RFH

SC96

APP. 086

2
dowed by their Creator with certain unalienable Rights,
that among these are Life, Liberty and the pursuit of
Happiness.’’;
Whereas those signers of the Declaration of Independence
further declared: ‘‘And for the support of this Declaration, with a firm reliance on the protection of divine
Providence, we mutually pledge to each other our Lives,
our Fortunes and our sacred Honor.’’;

ccoleman on PROD1PC71 with BILLS

Whereas in 1782, one of the great leaders of the United
States, Thomas Jefferson, wrote: ‘‘[C]an the liberties of
a nation be thought secure when we have removed their
only firm basis, a conviction in the minds of the people
that these liberties are the gift of God? That they are not
to be violated but with His wrath?’’;
Whereas the distinguished founding statesman, Benjamin
Franklin, when speaking in 1787 at the Constitutional
Convention, declared: ‘‘Our prayers, Sir, were heard, and
they were graciously answered. All of us who were engaged in the struggle must have observed frequent instances of a Superintending providence in our favor. To
that kind providence we owe this happy opportunity of
consulting in peace on the means of establishing our future national felicity. And have we now forgotten that
powerful friend? or do we imagine that we no longer need
His assistance. I have lived, Sir, a long time and the
longer I live, the more convincing proofs I see of this
truth—that God governs in the affairs of men. And if a
sparrow cannot fall to the ground without his notice, is
it probable that an empire can rise without his aid? We
have been assured, Sir, in the sacred writings that ‘except the Lord build they labor in vain that build it.’ I
firmly believe this; and I also believe that without his
SCON 96 RFH
VerDate Aug 31 2005

05:46 Jul 14, 2006

Jkt 049200

PO 00000

Frm 00002

Fmt 6652

Sfmt 6300

E:\BILLS\SC96.RFH

SC96

APP. 087

3
concurring aid we shall succeed in this political building
no better than the Builders of Babel. . . .’’;
Whereas the national hero and first President, George Washington, proclaimed in his first inaugural address in 1789:
‘‘[I]t would be peculiarly improper to omit in this first
official act my fervent supplications to that Almighty
Being who rules over the universe, who presides in the
councils of nations, and whose providential aids can supply every human defect, that His benediction may consecrate to the liberties and the happiness of the people
of the United States a government instituted by themselves for these essential purposes, and may enable every
instrument employed in its administration to execute with
success the functions allotted to his charge.’’;

ccoleman on PROD1PC71 with BILLS

Whereas one stanza of the ‘‘Star Spangled Banner’’, which
was written by Francis Scott Key in 1814 and adopted
as the national anthem of the United States in 1931,
states: ‘‘O thus be it ever when free-men shall stand, Between their lov’d home and the war’s desolation; Blest
with vict’ry and peace, may the heav’n-rescued land
Praise the Pow’r that hath made and preserv’d us as a
nation! Then conquer we must, when our cause it is just,
And this be our motto: ‘In God is our trust!’ And the
star-spangled banner in triumph shall wave O’er the land
of the free and the home of the brave!’’;
Whereas in 1861, the Secretary of the Treasury, Salmon P.
Chase, while instructing James Pollock, Director of the
Mint at Philadelphia, to prepare a motto, stated: ‘‘No nation can be strong except in the strength of God, or safe
except in His defense. The trust of our people in God
should be declared on our national coins. You will cause
a device to be prepared without unnecessary delay with
SCON 96 RFH
VerDate Aug 31 2005

05:46 Jul 14, 2006

Jkt 049200

PO 00000

Frm 00003

Fmt 6652

Sfmt 6300

E:\BILLS\SC96.RFH

SC96

APP. 088

4
a motto expressing in the fewest and tersest words possible this national recognition.’’;
Whereas the phrase ‘‘In God We Trust’’ first appeared on a
coin of the United States in 1864;
Whereas in 1955, the phrase ‘‘In God We Trust’’ was designated as a mandatory phrase to be inscribed on all currency and coins of the United States;
Whereas on March 28, 1956, the Judiciary Committee of the
House of Representatives, in its report accompanying H.
J. Res. 396 (84th Congress), stated: ‘‘It will be of great
spiritual and psychological value to our country to have
a clearly designated national motto of inspirational quality in plain, popularly accepted English.’’;
Whereas on July 30, 1956, President Dwight D. Eisenhower
signed H. J. Res. 396 (84th Congress), making the
phrase ‘‘In God We Trust’’ the official motto of the
United States; and
Whereas the occasion of the 50th anniversary of the formal
adoption of the national motto of the United States, ‘‘In
God We Trust’’, presents an opportunity for the citizens
of the United States to reaffirm the concept embodied in
that motto that—
(1) the proper role of civil government is derived
from the consent of the governed, who are endowed by
their Creator with certain unalienable Rights; and
(2) the success of civil government relies firmly on
the protection of divine Providence: Now, therefore, be it

ccoleman on PROD1PC71 with BILLS

1

Resolved by the Senate (the House of Representatives

2 concurring), That Congress—

SCON 96 RFH
VerDate Aug 31 2005

05:46 Jul 14, 2006

Jkt 049200

PO 00000

Frm 00004

Fmt 6652

Sfmt 6201

E:\BILLS\SC96.RFH

SC96

APP. 089

5
1

(1) commemorates the 50th anniversary of the

2

national motto of the United States, ‘‘In God We

3

Trust’’;

4

(2) celebrates the national motto as—

5

(A) a fundamental aspect of the national

6

life of the citizens of the United States; and

7

(B) a phrase that is central to the hopes

8

and vision of the Founding Fathers for the per-

9

petuity of the United States;

10

(3) reaffirms today that the substance of the

11

national motto is no less vital to the future success

12

of the Nation; and

13
14

(4) encourages the citizens of the United States
to reflect on—

15

(A) the national motto of the United

16

States; and

17

(B) the integral part that the national

18

motto of the United States has played in the

19

life of the Nation, before and after its official

20

adoption.
Passed the Senate July 12, 2006.

ccoleman on PROD1PC71 with BILLS

Attest:

EMILY J. REYNOLDS,
Secretary.

SCON 96 RFH
VerDate Aug 31 2005

05:46 Jul 14, 2006

Jkt 049200

PO 00000

Frm 00005

Fmt 6652

Sfmt 6201

E:\BILLS\SC96.RFH

SC96

APP. 090

H. Res. 431

In the House of Representatives, U. S.,
June 11, 2007.
Whereas the first anti-miscegenation law in the United States
was enacted in Maryland in 1661;
Whereas miscegenation was typically a felony under State
laws prohibiting interracial marriage punishable by imprisonment or hard labor;
Whereas in 1883, the Supreme Court held in Pace v. Alabama that anti-miscegenation laws were consistent with
the equal protection clause of the 14th Amendment as
long as the punishments given to both white and black
violators are the same;
Whereas in 1912, a constitutional amendment was proposed
in the House of Representatives prohibiting interracial
marriage ‘‘between negroes or persons of color and Caucasians’’;
Whereas in 1923, the Supreme Court held in Meyer v. Nebraska that the due process clause of the 14th Amendment guarantees the right of an individual ‘‘to marry, establish a home and bring up children’’;
Whereas in 1924, Virginia enacted the Racial Integrity Act
of 1924, which required that a racial description of every
person be recorded at birth and prevented marriage between ‘‘white persons’’ and non-white persons;
APP. 091

2
Whereas in 1948, the California Supreme Court overturned
the State’s anti-miscegenation statutes, thereby becoming
the first State high court to declare a ban on interracial
marriage unconstitutional and making California the first
State to do so in the 20th century;
Whereas the California Supreme Court stated in Perez v.
Sharp that ‘‘a member of any of these races may find
himself barred from marrying the person of his choice
and that person to him may be irreplaceable. Human
beings are bereft of worth and dignity by a doctrine that
would make them as interchangeable as trains’’;
Whereas by 1948, 38 States still forbade interracial marriage, and 6 did so by State constitutional provision;
Whereas in June of 1958, 2 residents of the Commonwealth
of Virginia—Mildred Jeter, a black/Native American
woman, and Richard Perry Loving, a Caucasian man—
were married in Washington, DC;
Whereas upon their return to Virginia, Richard Perry Loving
and Mildred Jeter Loving were charged with violating
Virginia’s anti-miscegenation statutes, a felonious crime;
Whereas the Lovings subsequently pleaded guilty and were
sentenced to 1 year in prison, with the sentence suspended for 25 years on condition that the couple leave
the State of Virginia;
Whereas Leon Bazile, the trial judge of the case, proclaimed
that ‘‘Almighty God created the races white, black, yellow, Malay and red, and he placed them on separate continents. And but for the interference with his arrangement there would be no cause for such marriages. The
fact that he separated the races shows that he did not
intend for the races to mix.’’;
•HRES 431 EH

APP. 092

3
Whereas the Lovings moved to the District of Columbia, and
in 1963 they began a series of lawsuits challenging their
convictions;
Whereas the convictions were upheld by the State courts, including the Supreme Court of Appeals of Virginia;
Whereas the Lovings appealed the decision to the Supreme
Court of the United States on the ground that the Virginia anti-miscegenation laws violated the Equal Protection and Due Process Clauses of the 14th Amendment
and were therefore unconstitutional;
Whereas in 1967, the U.S. Supreme Court granted certiorari
to Loving v. Virginia and readily overturned the Lovings’
convictions;
Whereas in the unanimous opinion, Chief Justice Earl Warren wrote: ‘‘Marriage is one of the ‘basic civil rights of
man,’ fundamental to our very existence and survival. . . . To deny this fundamental freedom on so
unsupportable a basis as the racial classifications embodied in these statutes, classifications so directly subversive of the principle of equality at the heart of the Fourteenth Amendment, is surely to deprive all the State’s
citizens of liberty without due process of law.’’;
Whereas the opinion also stated that ‘‘the Fourteenth
Amendment requires that the freedom of choice to marry
not be restricted by invidious racial discriminations.
Under our Constitution, the freedom to marry, or not
marry, a person of another race resides with the individual and cannot be infringed by the State.’’;
Whereas in 1967, 16 States still had law prohibiting interracial marriage, including Alabama, Arkansas, Delaware,
Florida, Georgia, Kentucky, Louisiana, Mississippi, Mis•HRES 431 EH

APP. 093

4
souri, North Carolina, Oklahoma, South Carolina, Tennessee, Texas, and West Virginia;
Whereas Loving v. Virginia struck down the remaining antimiscegenation laws nationwide;
Whereas in 2000, Alabama became the last State to remove
its anti-miscegenation laws from its statutes;
Whereas according to the U.S. Census Bureau, from 1970 to
2000 the percentage of interracial marriages has increased from 1 percent of all marriages to more than 5
percent;
Whereas the number of children living in interracial families
has quadrupled between 1970 to 2000, going from
900,000 to more than 3 million; and
Whereas June 12th has been proclaimed ‘‘Loving Day’’ by
cities and towns across the country in commemoration of
Loving v. Virginia: Now, therefore, be it
Resolved, That the House of Representatives—
(1) observes the 40th Anniversary of the U.S. Supreme Court decision in Loving v. Virginia; and
(2) commemorates the legacy of Loving v. Virginia
in ending the ban on interracial marriage in the United
States and in recognizing that marriage is one of the
‘‘basic civil rights of man’’ at the heart of the 14th
Amendment protections.
Attest:

Clerk.
•HRES 431 EH

APP. 094

